<html>
<title> - THE PERFORMANCE OF THE COURT OF APPEALS AND THE SUPERIOR COURT OF THE DISTRICT OF COLUMBIA</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]





 THE PERFORMANCE OF THE COURT OF APPEALS AND THE SUPERIOR COURT OF THE 
                          DISTRICT OF COLUMBIA

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON THE DISTRICT OF COLUMBIA

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              JUNE 5, 2002

                               __________

                           Serial No. 107-175

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform

                                 ______

85-723              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
ILEANA ROS-LEHTINEN, Florida         EDOLPHUS TOWNS, New York
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
STEPHEN HORN, California             PATSY T. MINK, Hawaii
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
BOB BARR, Georgia                    DENNIS J. KUCINICH, Ohio
DAN MILLER, Florida                  ROD R. BLAGOJEVICH, Illinois
DOUG OSE, California                 DANNY K. DAVIS, Illinois
RON LEWIS, Kentucky                  JOHN F. TIERNEY, Massachusetts
JO ANN DAVIS, Virginia               JIM TURNER, Texas
TODD RUSSELL PLATTS, Pennsylvania    THOMAS H. ALLEN, Maine
DAVE WELDON, Florida                 JANICE D. SCHAKOWSKY, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
ADAM H. PUTNAM, Florida              DIANE E. WATSON, California
C.L. ``BUTCH'' OTTER, Idaho          STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia                      ------
JOHN J. DUNCAN, Jr., Tennessee       BERNARD SANDERS, Vermont 
JOHN SULLIVAN, Oklahoma                  (Independent)


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director

                Subcommittee on the District of Columbia

                CONSTANCE A. MORELLA, Maryland, Chairman
TODD RUSSELL PLATTS, Pennsylvania    ELEANOR HOLMES NORTON, Washington, 
THOMAS M. DAVIS, Virginia,               DC
CHRISTOPHER SHAYS, Connecticut       DIANE E. WATSON, California
                                     STEPHEN F. LYNCH, Massachusetts

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
                     Russell Smith, Staff Director
                      Heea Vazirani-Fales, Counsel
               Matthew Batt, Legislative Assistant/Clerk
                      Jon Bouker, Minority Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 5, 2002.....................................     1
Statement of:
    Ashby, Cornelia M., Director, Education, Workforce and Income 
      Security Issues, General Accounting Office; Annice M. 
      Wagner, chief judge, District of Columbia Court of Appeals; 
      Rufus G. King III, chief judge, District of Columbia 
      Superior Court; and Lee F. Satterfield, presiding judge, 
      District of Columbia Family Court..........................    11
    Harlan, Stephen, chairman of the board, Council for Court 
      Excellence; Dr. Olivia Golden, director, District of 
      Columbia Child and Family Services; and Arabella Teal, 
      principal deputy corporation counsel, District of Columbia.    77
Letters, statements, etc., submitted for the record by:
    Ashby, Cornelia M., Director, Education, Workforce and Income 
      Security Issues, General Accounting Office, prepared 
      statement of...............................................    13
    Golden, Dr. Olivia, director, District of Columbia Child and 
      Family Services, prepared statement of.....................    92
    Harlan, Stephen, chairman of the board, Council for Court 
      Excellence, prepared statement of..........................    82
    King, Rufus G., III, chief judge, District of Columbia 
      Superior Court, prepared statement of......................    52
    Morella, Hon. Constance A., a Representative in Congress from 
      the State of Maryland, prepared statement of...............     3
    Norton, Hon. Eleanor Holmes, a Delegate in Congress from the 
      District of Columbia, prepared statement of................     7
    Satterfield, Lee F., presiding judge, District of Columbia 
      Family Court, prepared statement of........................    59
    Teal, Arabella, principal deputy corporation counsel, 
      District of Columbia, prepared statement of................   108
    Wagner, Annice M., chief judge, District of Columbia Court of 
      Appeals, prepared statement of.............................    41

 
 THE PERFORMANCE OF THE COURT OF APPEALS AND THE SUPERIOR COURT OF THE 
                          DISTRICT OF COLUMBIA

                              ----------                              


                        WEDNESDAY, JUNE 5, 2002

                  House of Representatives,
          Subcommittee on the District of Columbia,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:52 a.m., in 
room 2154, Rayburn House Office Building, Hon. Constance A. 
Morella, (chairwoman of the subcommittee) presiding.
    Present: Representatives Morella, Norton and DeLay.
    Staff present: Russell Smith, staff director; Heea 
Vazirani-Fales, counsel; Robert White, communications director; 
Matthew Batt, legislative assistant/clerk; Shalley Kim, staff 
assistant; Jean Gosa, minority assistant clerk; and Jon Bouker, 
minority counsel.
    Mrs. Morella. Thank you all for being here today. Just 
about a year ago, many of us were gathered here, in this same 
room, to discuss a proposal to reform the family division of 
the District of Columbia Superior Court. After much debate and 
discussion and negotiation, Congress passed, and the President 
signed, the District of Columbia Family Court Act of 2001, the 
first major overhaul of the District Family Court System in 
three decades.
    Today, we are here to not only get a status report on how 
the D.C. Family Court Act is being implemented, but also to 
take a broader look at the entire District of Columbia Court 
System. As part of the 1997 Revitalization Act, the Federal 
Government assumed responsibility for the city's Court of 
Appeals and its Superior Court, which encompasses the new 
Family Court, the criminal and civil divisions and other 
operations.
    There are four general areas we are going to examine in 
depth today. One, as I mentioned, is the progress of the Family 
Court Implementation Plan. From all accounts, court officials 
have worked diligently and collaboratively on developing this 
plan, and their efforts should be applauded. The General 
Accounting Office, however, raised several questions regarding 
this plan, noting that it does not include some elements 
required by law--such as getting the Judicial Nominating 
Commission involved in recruiting judges and a detailed 
determination of how many judicial staff and magistrates should 
be hired.
    The second is the development and application of the 
Integrated Justice Information System. This system essentially 
allows users to move more easily to track cases and manage 
information. It is critically important for the court system to 
interact with so many Federal and local agencies. It is 
especially important to the success of the new Family Court.
    Third, we want to look at the Court's development of a 
strategic plan. How is the court system planning to measure its 
own performance and how is it going to determine how well 
resources are being used to ensure that citizens receive 
adequate access to justice, that proceedings are both fair and 
swift, that the court system is independent and accountable, 
and that the public has trust and confidence in the courts. 
These are the questions we pose.
    Finally, we will discuss the Victims of Violent Crime 
Compensation Fund. As of September 2000, there was an $18 
million balance to this fund, which was to go toward 
compensation payments to crime victims to make victims aware of 
the program. For too long, this money has been there unused. I 
would like to have the subcommittee get a status report on the 
District's plan to distribute it.
    [The prepared statement of Hon. Constance A. Morella 
follows:]

[GRAPHIC] [TIFF OMITTED] T5723.001

[GRAPHIC] [TIFF OMITTED] T5723.002

    Mrs. Morella. I would now like to recognize the 
distinguished ranking member of the subcommittee.
    Ms. Norton. Thank you, Madam Chair.
    I appreciate the Chair for organizing this oversight 
hearing on the District Superior Court and its recently 
reformed Family Court and her work on the District of Columbia 
Family Court Act. May I say in advance that there is an 
important hearing of another one of my subcommittees taking 
place on the floor unfortunately and I am have to go back and 
forth because a matter involving the District of Columbia may 
well come up at that hearing. I apologize but I will be back if 
I have to leave.
    I particularly appreciate that today we also will hear from 
the Director of the Child and Family Services Agency which is 
central to the District's most vulnerable children and families 
whether or not under the court's jurisdiction. Both the 
Superior Court and the new Family Court, which is part of the 
Superior Court, recently have gone through a rocky period. The 
Superior Court encountered budget shortfalls, used funds 
intended for criminal defense of indigents for operations, 
experienced a lengthy period in which regular staff increases 
were suspended, and was subject to a critical GAO investigation 
and report. Oversight during this period, including several 
hearings was with D.C. Appropriations Subcommittees.
    Today's District of Columbia Subcommittee oversight hearing 
is especially welcome because it is the first hearing by the 
authorizing committee on the Superior Court since the 
Revitalization Act transferred Superior Court costs to the 
Federal Government. This District of Columbia Subcommittee 
hearing affords the opportunity for court leaders to discuss 
the post-transitional period of the Superior Court and for 
Congress to learn whether the problems the Court encountered 
have been resolved. The subcommittee is particularly interested 
in the status of the Court's strategic plan.
    Problems in the organization of the Family Division 
attracted the interest and concern of Congress after the death 
of infant Brianna Blackman while under the jurisdiction of the 
Court. The Court continued distributing cases to all 59 judges, 
a system that did not guarantee priority to the District's most 
troubled children.
    Congress, which alone, can change existing law affecting 
D.C. courts, believed that only statutory change could 
accomplish the necessary reform. I am grateful to 
Representative Tom DeLay who worked closely with me on the 
Family Court Act. Not only did Representative DeLay obtain $23 
million in additional funding for the Court to assure fruitful 
reform, Mr. DeLay, who had strong views concerning the Court 
and originally desired to create a separate Family Court 
outside of the Superior Court, was willing to work closely with 
me on these and other differences. After months of working 
together, he and I arrived at a consensus compromise bill that 
was signed by President Bush this year. Representative DeLay 
requested the GAO report on the Family Court's 90-day 
transition plan that we will hear about presently.
    The task of transferring widely disbursed cases involving 
the District's most vulnerable children and families to a 
smoothly running new Family Court vehicle is delicate at best. 
We look forward to learning the details concerning this 
critical transition.
    Although the Family Court, like all component parts of the 
District's child welfare system, was in need of reform, the 
most daunting task facing the District always has been the 
complete reengineering of the Child and Family Services Agency. 
We are eager to hear what progress has been made regarding the 
District's efforts to reform this agency which has been 
transferred back to the District from receivership and to learn 
whether satisfactory coordination of the agency's services with 
the operations of the new Family Court is occurring.
    We appreciate the work of the Superior Court, the Family 
Court, the Child and Family Services Agency, and all who are 
working on these difficult issues and we appreciate the 
testimony that will be received today.
    Thank you, Madam Chair.
    [The prepared statement of Hon. Eleanor Holmes Norton 
follows:]

[GRAPHIC] [TIFF OMITTED] T5723.003

[GRAPHIC] [TIFF OMITTED] T5723.004

    Mrs. Morella. Thank you, Ms. Norton. I am now pleased to 
recognize Majority Whip, Tom DeLay, who has been instrumental 
in the legislation that became law and now the oversight by GAO 
and our discussion of the implementation. He has been 
indefatigable and unrelenting in his efforts to make sure that 
the children of the District of Columbia are well served. 
Congressman DeLay.
    Mr. DeLay. Thank you, Madam Chairwoman. I appreciate your 
remarks and thank you, Congresswoman Norton, for your remarks. 
It has been a pleasure working with both of you on this issue. 
Both of you are leaders, not just on this issue but on so many 
issues that affect Washington, DC, and we greatly appreciate 
your leadership.
    As the House prepares to release funding for the new Family 
Court, I think we need to answer a few basic questions. We need 
to be certain that the Court is actually organizing itself 
consistently with the intent of Congress. The GAO studied the 
transition plan and found it meets ``most, but not all,'' of 
the act's requirements. I am pleased that the District is 
attempting to ensure that the Family Court organizes itself 
around that most important principle, that children come first.
    There are several important issues that I hope this hearing 
addresses concerning the implementation of the Family Court 
legislation. To make children's needs the true priority in the 
Family Court requires that the judges and magistrates hearing 
their cases be both experienced and well trained. This Congress 
drafted the Family Court Act of 2001 to require expertise and 
experience in family law as a condition of being seated on the 
Court. While 12 judges have been assigned to Family Court, the 
GAO is still uncertain what specific experience or expertise in 
family law made them eligible to join the Family Court. I hope 
that today's testimony reveals their qualifications. We need to 
know why these 12 judges are on the Court, Congress must be 
assured that this critical reform is in place.
    The appointment of senior judges raises additional concerns 
about judicial qualifications. Clearly, we cannot accept 
substandard expertise or experience from senior judges but the 
GAO tells us that we know very little about senior judges and 
the actual qualifications they bring to the bench. For example, 
will senior judges hear abuse and neglect cases, how many part-
time senior judges are currently serving on the Superior Court, 
will the Court randomly assign cases to senior judges? It is 
far from clear how the Court can protect the one family, one 
judge concept if senior judges hear dependency cases. The 
answers to these questions must be fully explored because we 
must determine that the children and families of the District 
of Columbia receive the highest quality of service.
    The successful implementation of the Family Court Act 
depends on the response not just from the Court but from the 
Child and Family Services Agency as well. As we all know, the 
purpose of the court reforms, that Congress put into place, was 
to ensure the District's abused and neglected children are 
placed in safe and permanent families as quickly as possible. 
Children grow best in loving families and we designed the 
Family Court Act to ensure that children don't languish in 
foster care.
    To achieve this goal, it is important that the Court and 
the agency begin obeying the mandates of the Adoption and Safe 
Families Act. These mandates require that the courts and the 
agency work together to ensure that children are always 
returned to safe homes. It requires that for every child. The 
agency thoroughly investigates the biological home and the 
potential foster home so that judges never release children to 
unsafe settings. Further, it requires that the social workers 
are sufficiently trained. They must write comprehensive and 
meticulous reports and their recommendations must be based upon 
all the relevant facts of that child's case. Finally, the 
Courts and the Agency need to work together and identify 
benchmarks so that Congress can evaluate their performance and 
measure the effectiveness of our revised system to protect 
Washington's children.
    I continue to hope that the D.C. Courts and the District's 
Child Welfare System reform themselves into models for the rest 
of the Nation. To achieve this goal, it is important that all 
of us work together. We must dedicate ourselves to changing the 
Court and the Child Protective System so that children's needs 
for safety, permanency and well being are the system's 
paramount concern.
    I look forward to reviewing the testimony today and I hope 
our witnesses will provide the detailed and definitive 
responses that will alleviate our concerns.
    Thank you for your gracious hospitality, Madam Chairwoman, 
and I have to apologize but duty calls me elsewhere but we will 
review the testimony and look forward to seeing the record. I 
am glad to see you, Chief Justice King, and everyone else on 
the panel.
    Mrs. Morella. Thank you, Mr. DeLay. I know you will be 
following very closely what is stated today and the responses 
to questions. Again, thanks for seeing the baby being produced, 
coming to fruition.
    We have a very prominent series of two panels. The first 
panel before us, we thank you for being here. Cornelia M. Ashby 
is the Director, Education, Workforce and Income Security 
Issues, Government Accounting Office. The Honorable Annice M. 
Wagner is Chief Judge, District of Columbia Court of Appeals. 
The Honorable Rufus G. King, III is Chief Judge, District of 
Columbia Superior Court. The Honorable Lee F. Satterfield is 
Presiding Judge, District of Columbia Family Court. Anne Wicks 
is Executive Officer, District of Columbia Superior Court.
    I would like to ask you in accordance with our procedure on 
the full committee and the subcommittee, if you would stand and 
raise your right hand for an oath.
    [Witnesses sworn.]
    Mrs. Morella. The record will show an affirmative response. 
Please confine your comments not more than 5 minutes. Your 
statements in their entirety will be placed in the record. We 
will start off with you, Ms. Ashby.

STATEMENTS OF CORNELIA M. ASHBY, DIRECTOR, EDUCATION, WORKFORCE 
 AND INCOME SECURITY ISSUES, GENERAL ACCOUNTING OFFICE; ANNICE 
M. WAGNER, CHIEF JUDGE, DISTRICT OF COLUMBIA COURT OF APPEALS; 
 RUFUS G. KING III, CHIEF JUDGE, DISTRICT OF COLUMBIA SUPERIOR 
  COURT; AND LEE F. SATTERFIELD, PRESIDING JUDGE, DISTRICT OF 
                     COLUMBIA FAMILY COURT

    Ms. Ashby. I am pleased to be here today to discuss the 
progress made by the District of Columbia Superior Court in 
transitioning its Family Division to the Family Court.
    The D.C. Family Court Act required the Chief Judge of the 
Superior Court to submit to the President and the Congress a 
transition plan outlining the proposed operation of the Family 
Court. The Congress also required that we report the results of 
our analysis of the contents and effectiveness of the plan. Our 
report was issued in May 2002 and included a number of 
recommendations to improve the plan.
    My testimony today is based on our analysis of the 
transition plan. My remarks include preliminary observations on 
court initiatives to coordinate its activities with those of 
other District social service agencies. Our ongoing examination 
of these efforts will culminate in a report containing a more 
detailed assessment of factors to facilitate and hinder plan 
coordination later this year.
    In summary, the Superior Court had made progress in 
planning the transition to a Family Court but in implementing 
the plan, the Family Court will face challenges. Full 
transition to the Family Court in a timely and effective manner 
is dependent on obtaining and renovating appropriate space for 
all new Family Court personnel and integration of court 
activities with those of District social service agencies and 
development and installation of a new automated system 
currently planned as part of the D.C. Court's IJIS system.
    The Court acknowledges that its implementation plans may be 
slowed if appropriate space cannot be obtained in a timely 
manner. For example, the transition plan states that the 
complete transfer to the Family Court of abuse and neglect 
cases currently being heard by judges of other divisions of 
Superior Court is dependent in part on the Court's ability to 
provide appropriate space for additional judges and magistrate 
judges. However, there are a number of risks associated with 
the space plan. These include very aggressive implementation 
schedules and a design that makes the success of each part of 
the plan dependent on the timely completion of other parts of 
the plan. However, the transition plan does not include 
alternatives that the Court will pursue if its current plans 
for renovating space encounter delays or problems.
    The Family Court Act and court practices recommended by 
various national associations require the coordination of court 
activities with related social services. In this regard, the 
transition plan specifies several court initiatives, including 
the use of case coordinators, child protection mediators, 
attorney advisors and other legal representatives to support 
the judicial team initially comprised of the Family Court judge 
and a magistrate judge, but eventually to include an attorney 
from the Office of Corporation Counsel, guardians ad litem, 
parents, attorneys, and social workers.
    Other initiatives include interagency committees, monthly 
meetings involving the presiding and deputy presiding judges of 
the Family Court and heads of District agencies and the Family 
Service Center where representatives of several District social 
service agencies will be co-located with the Family Court.
    Along with these coordination initiatives come challenges. 
For example, the Court's transition plan states that until key 
agencies are sufficiently staffed and reorganized to complement 
the changes taking place in the Family Court, substantial 
improvements in the experiences of children and families served 
by the Court will remain a challenge. In addition, according to 
the Court, it takes time to obtain interagency commitments to 
coordinate the use of staff resources. Further, the 
availability of Family Service Centers depends on the timely 
completion of complex, interdependent space and facilities 
plans.
    The Family Court's current reliance on non-integrated 
automated information systems that do not fully support planned 
court operations such as the one family, one judge approach to 
case management required by the Family Court Act constrains its 
transition to a family court. As we reported in February 2002, 
a number of factors significantly increased the risk associated 
with acquiring and managing IJIS. In that report, we made 
several recommendations designed to reduce the risk associated 
with this effort. In April 2002, we met with D.C. Court 
officials to discuss the actions taken on our recommendations 
and found that significant actions had been initiated, that if 
properly implemented, will help reduce the risk.
    Although these are positive steps, D.C. courts still face 
many challenges in efforts to develop a system. Examples of 
these include ensuring that adequate controls and processes are 
in place to mitigate any adverse impacts on IJIS of interfacing 
with District systems of lesser quality; effectively 
implementing the discipline processes necessary to reduce the 
risk associated with IJIS to acceptable levels; ensuring that 
the requirements used to acquire IJIS contain the necessary 
specificity to reduce requirement-related defects to acceptable 
levels; ensuring that users receive adequate training and 
avoiding a schedule-driven effort.
    Madam Chairwoman, Congresswoman Norton, this concludes my 
statement. I will be happy to answer any questions either of 
you have.
    [The prepared statement of Ms. Ashby follows:]

    [GRAPHIC] [TIFF OMITTED] T5723.005
    
    [GRAPHIC] [TIFF OMITTED] T5723.006
    
    [GRAPHIC] [TIFF OMITTED] T5723.007
    
    [GRAPHIC] [TIFF OMITTED] T5723.008
    
    [GRAPHIC] [TIFF OMITTED] T5723.009
    
    [GRAPHIC] [TIFF OMITTED] T5723.010
    
    [GRAPHIC] [TIFF OMITTED] T5723.011
    
    [GRAPHIC] [TIFF OMITTED] T5723.012
    
    [GRAPHIC] [TIFF OMITTED] T5723.013
    
    [GRAPHIC] [TIFF OMITTED] T5723.014
    
    [GRAPHIC] [TIFF OMITTED] T5723.015
    
    [GRAPHIC] [TIFF OMITTED] T5723.016
    
    [GRAPHIC] [TIFF OMITTED] T5723.017
    
    [GRAPHIC] [TIFF OMITTED] T5723.018
    
    [GRAPHIC] [TIFF OMITTED] T5723.019
    
    [GRAPHIC] [TIFF OMITTED] T5723.020
    
    [GRAPHIC] [TIFF OMITTED] T5723.021
    
    [GRAPHIC] [TIFF OMITTED] T5723.022
    
    [GRAPHIC] [TIFF OMITTED] T5723.023
    
    [GRAPHIC] [TIFF OMITTED] T5723.024
    
    [GRAPHIC] [TIFF OMITTED] T5723.025
    
    [GRAPHIC] [TIFF OMITTED] T5723.026
    
    [GRAPHIC] [TIFF OMITTED] T5723.027
    
    [GRAPHIC] [TIFF OMITTED] T5723.028
    
    [GRAPHIC] [TIFF OMITTED] T5723.029
    
    [GRAPHIC] [TIFF OMITTED] T5723.030
    
    Mrs. Morella. Thank you, Ms. Ashby.
    I am now pleased to recognize Judge Annice Wagner.
    Judge Wagner. Madam Chairwoman, Congresswoman Norton, 
members of the subcommittee, thank you for this opportunity to 
discuss the work of the District of Columbia Courts. I appear 
today in my capacity as Chief Judge of the District of Columbia 
Court of Appeals and as Chair of the Joint Committee on 
Judicial Administration, the policymaking body for the District 
of Columbia Courts.
    I have submitted written testimony and therefore, I will 
highlight only a few matters in this oral statement.
    Briefly, on the District of Columbia Court of Appeals, we 
have continued our efforts to make management improvements and 
to use available resources to expedite the resolution of cases. 
We have been working with the Superior Court's Office of the 
Appeals Coordinator and the Court Reporting Division to reduce 
and ultimately eliminate any delays in completing the record of 
the trial court proceedings. We have hired an expert in the 
field, and procedures have been implemented which have resulted 
already in a 65 percent decrease in overdue transcripts. We 
anticipate that all overdue transcripts will be eliminated by 
August 2002. Originally, we had anticipated June, but we had to 
revise that schedule. Ultimately, this will mean that the 
overall time on appeal will be reduced.
    In the District of Columbia Court of Appeals, judicial 
productivity remains high. The Court's appeals disposition rate 
in 2001 was 110.2 percent of dispositions over filings. This 
has been the case for the last 3 years, that the number of 
dispositions have exceeded the number of cases filed for 
appeal. Last year, we also reduced the overall time on appeal. 
You will be interested to know that 2 years ago we started 
according full expedited treatment to appeals involving 
termination of parental rights and adoptions. We started 
training sessions for lawyers who handle these cases and 
developed forms to assist these lawyers to process their cases 
more expeditiously. We monitor the cases on a regular basis. We 
are close to finalizing the rule that will formalize 
implementation of the Family Court Act's expedition 
requirements for appeals.
    In many ways, last year marked a turning point for the 
District of Columbia Courts. The Court's ability to recruit and 
retain highly qualified staff was enhanced significantly as the 
fiscal year 2001 appropriation permitted the Courts' non-
judicial employees to achieve pay parity with their 
counterparts in the Federal agencies. As a result, we have been 
able to assemble and retain a strong management team in the 
past few years which has had a significant impact on the 
operations of the Courts. Many of our employees have been 
trained at the Institute for Court Management, which is an arm 
of the National Center for State Courts. Our employee turnover 
rate has been cut in half, dropping from 10.9 percent in fiscal 
year 2000 to 5.2 percent in fiscal year 2001.
    I am also pleased to report that the District of Columbia 
Courts are fiscally sound, a position which results in part 
from the appropriation of funds by Congress which more closely 
meets the Courts' fiscal requirements. We appreciate the 
support that each of you provided to assure our sound fiscal 
condition.
    This also results from sound fiscal management of our 
resources and careful development and monitoring of the Courts' 
spending plan. The Joint Committee does this on an ongoing 
basis, and many improvements have resulted. Our Defender 
Services Account, from which we pay lawyers who provide legal 
representation in proceedings involving abused and neglected 
children and indigent defendants, is solid. Management 
improvements have resulted in better tracking of vouchers for 
lawyers, the development of information which allows us to 
predict better future costs for the account and we have also 
reduced payment time to lawyers by 54 percent. It takes about 
26 days as of March 2001.
    We have been able to turn our attention to long term 
strategic planning and reengineering projects that will allow 
the Courts to determine priorities and seek measurable results 
in the coming years. We have always monitored our performance 
to ensure we provide excellent service to the residents of the 
District of Columbia. However, we are developing our strategic 
plan, and we are looking forward to making performance 
measurement systems even better than those we have today. We 
have enlisted in this effort the best available experts to 
assist us in gathering information and statistics about the 
Courts' work for use in planning and in setting and improving 
performance goals. We have appointed a Strategic Planning 
Leadership Counsel to work with these experts to develop long 
range strategic plans.
    The planning and performance assessment process will 
buildupon the nationally recognized Appellate and Trial Court 
Performance Standards and the Appellate Court Performance 
Standards. These standards identify key performance areas for 
appellate and trial courts and quantifiable indicators which 
can be used by courts to measure performance. It is our 
understanding that this approach is consistent with the 
Performance and Results Act and performance-based budgeting.
    The Courts have underway the first comprehensive master 
plan study, which is being conducted by the General Services 
Administration and experts in architecture and planning, to 
provide a blueprint for the Courts' capital projects and space 
utilization for the next 10 years as well as to identify the 
optimal location for the Family Court. This is an exciting 
project. A key element in this project is the restoration of 
the Old Courthouse at 451 Indiana Avenue for use by the Court 
of Appeals. The space currently occupied by the Court of 
Appeals will be needed to provide space for Superior Court 
functions.
    We are taking full advantage of the expertise of such 
agencies and organizations as the National Center for State 
Courts and the Institute for Court Management in all of these 
efforts. We will continue to work toward improving our court 
system in a way that supports our values, our independence and 
integrity, fairness and quality of service. We will continue to 
examine current practices to ensure that we manage our existing 
resources in the most prudent manner. Where structural reforms 
are needed to achieve additional efficiencies, we will work 
hard to address them. We appreciate the support that you have 
given to our efforts.
    Again, thank you for this opportunity to discuss these 
important achievements. We would be pleased to address any 
questions.
    [The prepared statement of Judge Wagner follows:]

    [GRAPHIC] [TIFF OMITTED] T5723.031
    
    [GRAPHIC] [TIFF OMITTED] T5723.032
    
    [GRAPHIC] [TIFF OMITTED] T5723.033
    
    [GRAPHIC] [TIFF OMITTED] T5723.034
    
    [GRAPHIC] [TIFF OMITTED] T5723.035
    
    [GRAPHIC] [TIFF OMITTED] T5723.036
    
    [GRAPHIC] [TIFF OMITTED] T5723.037
    
    [GRAPHIC] [TIFF OMITTED] T5723.038
    
    [GRAPHIC] [TIFF OMITTED] T5723.039
    
    Mrs. Morella. Thank you very much, Judge Wagner.
    I am now pleased to recognize Judge King who has been 
involved with this from its beginning.
    Judge King. Thank you, Madam Chairwoman.
    I am Rufus G. King III, Chief Judge, Superior Court of the 
District of Columbia. I would like to note that in addition to 
my colleagues at the table here, with me in the audience today 
are: Anita Josey Herring, Deputy Presiding Judge, Family Court; 
Juliette McKenna, one of the new Family Court magistrate 
judges; Ken Foor, the Court's IT director; and Anthony Rainey, 
our Chief Financial Officer.
    I thank you for the opportunity to discus the Court's 
productivity, effectiveness and innovation.
    As Chief Judge Wagner outlined, the Courts are engaged in a 
comprehensive strategic planning effort that will inform our 
practices in coming years. This will be of vital assistance to 
the Superior Court, as we operate one of the busiest 
courthouses in the country with among the highest number of 
case filings per capita and the highest number of cases per 
judge in the Nation.
    We have been monitoring case clearance rates, the ratio of 
cases filed to cases closed, more than 100 percent is good, 
less than 100 percent is bad. We have also been monitoring 
pending caseloads as measures of our progress. In the course of 
our strategic planning effort, we anticipate adding many more 
measures of our performance consistent with the trial court 
performance standards promulgated by the National Center for 
State Courts. We also plan to implement the computer capacity 
to report on them more capably.
    The Integrated Justice Information System is a crucial next 
step to upgrading our performance capabilities. IJIS will 
combine 18 different data bases within the Court so that 
records can be easily accessed. The first phase of IJIS will be 
installed in the Family Court. It will enable us to more 
effectively implement the principle of one judge one family and 
measure and report our performance to the Congress and the 
public.
    Following the submission of a detailed plan for IJIS to 
Congress in May 2001, the General Accounting Office reviewed 
the project. GAO's recommendations, which we are implementing 
in close coordination with that agency, have strengthened the 
project, helping to ensure its success. As we implement IJIS, 
we are also working with the Child and Family Services Agency 
and the Office of Corporation Counsel, as well as numerous 
other D.C. agencies, to ensure appropriate access to each 
other's systems. The high level of cooperation among the 
different agencies responsible for protecting child welfare 
promises significant improvement in the level of service 
offered.
    I would like to thank especially the Chair and ranking 
member of this subcommittee for your leadership. It has been 
critical to moving this effort toward a successful completion. 
Since 1999 when the Criminal Justice Coordinating Council began 
to focus intently on police overtime, its members, the Federal 
and D.C. criminal justice agencies, have been working together 
in unprecedented collaboration. As a result, many new 
initiatives are being implemented and are quickly producing 
results. I won't take time to detail them, but I can report 
that according to Chief of Police Charles Ramsey, court related 
police overtime costs have dropped 30 percent during the second 
quarter of fiscal year 2002 compared with the same period last 
year, notwithstanding a 10 percent increase in arrests. Again, 
this subcommittee's support, particularly by the Chair and 
ranking member, has played an important role in the Council's 
strengthening and its ability to achieve this success.
    I would like to answer specifically the question raised by 
Representative DeLay. He submitted a letter to us for which we 
are preparing the answers that are due the 15th, and the 
response will be timely. Essentially, as to senior judges, they 
would participate in Family Court duties under three 
circumstances. First, a few, and it is only two or three senior 
judges who retained neglect and abuse cases at the time they 
retired, will be turning those cases back to the Family Court 
during our transition period. During the transition period, 
they will hear those cases in the same manner that they would 
have had they remained active duty judges, but only for the 
period necessary to arrange their transfer back to the Family 
Court.
    Second, any particular case, would be handled consistent 
with those of active duty judges. If transfer back would delay 
permanency or would be detrimental to the interests of the 
child involved, the Senior Judge will be allowed to retain that 
case for a period to resolve a crisis or whatever would be 
necessary so that neither of those conditions would apply.
    Finally, if there were an emergency under the conditions 
outlined in the act, a Senior Judge might be called upon to 
fill in in the Family Court, but I can assure this subcommittee 
that no Senior Judge who was asked to substitute in that 
circumstance would be allowed to do so unless he or she met the 
criteria applicable to active judges sitting in the Family 
Court. For example, one of our former presiding judges of the 
Family Court, who has many years of experience in the Family 
Court, might be called upon after he takes senior status to 
assist in the Family Court on a short term basis.
    Those would be the only circumstances under which Senior 
Judges would sit in the Family Court.
    I thank you for the opportunity to discuss some of the 
challenges and our progress. I appreciate the interest you have 
shown in the Courts. I look forward to working with you to 
ensure that justice in the District of Columbia continues to be 
administered promptly, fairly and effectively.
    [The prepared statement of Judge King follows:]

    [GRAPHIC] [TIFF OMITTED] T5723.040
    
    [GRAPHIC] [TIFF OMITTED] T5723.041
    
    [GRAPHIC] [TIFF OMITTED] T5723.042
    
    [GRAPHIC] [TIFF OMITTED] T5723.043
    
    Mrs. Morella. Thank you, Judge King.
    I am now pleased to recognize Judge Satterfield.
    Judge Satterfield. Thank you for this opportunity to update 
you on the progress we have made in implementing the Family 
Court Act of 2001.
    The work on that act actually started for the Court prior 
to the passing of the act because in December of last year, the 
Chief Judge and I went to a number of qualified judges to see 
if they were interested in serving in a new Family Court. We 
were happy to have ten volunteers of qualified judges to join 
me and Judge Josey Herring in our efforts to work the Family 
Court. These judges volunteered knowing the act would be passed 
and that they would be required to certify that they would stay 
in Family Court and go through ongoing training. Some of these 
judges had already been in the Family Division, so they were 
already working the cases of the Family Division.
    They have brought a commitment, a new energy and a spirit 
of cooperation and it has been a pleasure to work with them for 
these last 6 months under the Family Court. Immediately after 
the act was passed, the Court acted quickly through the Chief 
Judge and developed a management team of experienced court 
managers and judges to work on the transition plan and as you 
know, the plan was filed in a timely manner.
    We also recognized that in order to implement this act, you 
had to have your stakeholders involved and you had to listen to 
and collaborate with them to have a collaborative effort. So we 
developed a Family Court Implementation Committee and invited 
our stakeholders to participate with us in implementing the 
Family Court Act. During this time period, Judge Josey Herring 
and I, and other Family Court non-judicial staff, went out into 
the community and talked to child welfare professionals, 
juvenile justice professionals and members of the Bar and 
solicited their views and received their priorities regarding 
the Family Court.
    You gave us a provision in the Family Court Act that 
enabled us to do even more during that transition period and 
that was the provision that allowed the Court to hire five 
magistrate judges and we determined to hire five new magistrate 
judges during that transition period. I have to say they are 
well qualified and are of a pool of well qualified family law 
attorneys. We are waiting to hire more from that pool and we 
are excited by the prospects of doing that.
    If you will let me highlight some of the things we have 
done that are indicated in the transition plan. The 
reassignment of cases from outside the Family Court to the new 
magistrate judges, we have met our initial goal of transferring 
the initial group of cases of children back to Family Court. In 
meeting that goal, we also achieved another goal. We were able 
to reduce the number of judges who handled cases of children 
that are assigned to other divisions of the Court. The way we 
did that was by taking the entire caseload of the 17 judges 
outside of the Family Court and bringing their children back to 
Family Court. We took the entire caseload with the exception of 
cases they indicated were going to achieve permanency in the 
next few months and that resulted, I am pleased to say, in 
reducing the number of judges who had these cases outside of 
Family Court from 48 to 31. We will gradually continue to do 
that because we told the magistrate judges don't measure your 
success by reducing your caseload, measure it by achieving 
permanency for the children. As you do that in each case, we 
are going to go back outside Family Court and bring in another 
case during this transition period. When we bring aboard the 
remaining judicial officers, we are going to bring them all 
back. We are pleased that is going well.
    We have started implementation of the one judge/one family 
case management approach. We met with our stakeholders and came 
to the decision that we need to focus first on the children's 
cases and focus on making sure we are not delaying permanency 
but we are speeding up permanency as we bring in the related 
cases. The judges were asked to start to handle all related 
cases that help achieve permanency in those cases such as 
custody, guardianship and adoption cases. We will continue with 
this effort as we meet this goal of completely and fully 
implementing this system.
    One of the things we find is that you want to resolve these 
cases as early as you can in a non-adversarial way because once 
you have done that, you can start focusing on the issues of 
permanency. At the beginning of this year, we developed and 
implemented a Child Mediation Program. We are excited about 
this program because we are taking half of the children's cases 
filed this year into that program. We are having it evaluated 
by a nationally recognized organization so that by the end of 
the year, we will know whether all appropriate cases should 
come in that program. We will expand that program to include 
all appropriate cases, so that we can resolve these child cases 
earlier and start working toward achieving permanency.
    In the training area, we are planning for the first time 
ever, a cross training program; we have a Subcommittee on 
Education and training working with all of our stakeholders to 
develop this program which we hope to implement some time later 
this year or early next year. We are striving to create a court 
friendly environment, not just waiting rooms for the parties 
who come to court, but also clinics where parties who come to 
court not represented by counsel, cannot afford counsel, and as 
you mentioned, the Family Service Center, we are looking 
forward to having a centralized intake center for Family Court 
filings.
    We know that you want better outcomes for children and we 
do too. An article about reinventing government says, ``If you 
do not measure results, you cannot tell success from failure.'' 
We want to see success, we know you want to see success and we 
want to see better outcomes for children. So we are going to 
work to measure what we are doing. We are going to look to make 
sure children are not in foster care as long as they have been 
by measuring the age of our cases to see how we are doing. We 
are going to look at the number of cases where permanency is 
not achieved due to the child aging out because then we know we 
need to work harder to achieve permanency before that occurs.
    We are going to work hard to meet the ASFA time lines 
because as you know it was designed to create a process to tell 
the courts, you need to be doing more in terms of meeting time 
lines because at the end of meeting those time lines, there is 
a better outcome for children. So we will seek to meet that 
process, meet those time lines so we can have better outcomes 
with children.
    The same article says, ``If you can demonstrate results, 
you can win public support.'' If I can put it another way for 
this committee, we know if we demonstrate great results for 
children and families, we will have your support. That is why 
you enacted the Family Court Act of 2001. We want to be in a 
position to tell you the results we have made for children and 
the reasons why we are not making certain results. We are 
recording more information from our cases so we can tell you 
what the barriers are, we can tell you where the delays are, 
and we can tell you the areas in which we are successful in 
achieving permanency. You will be able to measure what we are 
doing because the act contains sufficient number of reporting 
mechanisms, evaluations and review periods to assure you know 
what we are doing.
    You will continue to use the Comptroller General, the GAO 
and the GSA to monitor our progress. We intend to report to you 
in a timely fashion on our progress.
    Let me finish by saying there are challenges. Some have 
been detailed in the GAO report. There are challenges we still 
face, some of which the agency is working on and we are pleased 
to see the agency making progress in reducing the number of 
children per social worker, their challenges in terms of drug 
treatment in the city because a significant number of our cases 
involve drug abuse in our child welfare cases and in our 
juvenile cases. We are working toward developing a new Family 
Drug Court in order to address those needs, but we need 
commitment and more drug treatment in the city.
    With these challenges, I am still optimistic that we will 
achieve better results for children in the future and if I can 
say on a personal note, having been born and raised in this 
city, I am excited about that prospect.
    Thank you.
    [The prepared statement of Judge Satterfield follows:]

    [GRAPHIC] [TIFF OMITTED] T5723.044
    
    [GRAPHIC] [TIFF OMITTED] T5723.045
    
    [GRAPHIC] [TIFF OMITTED] T5723.046
    
    [GRAPHIC] [TIFF OMITTED] T5723.047
    
    [GRAPHIC] [TIFF OMITTED] T5723.048
    
    Mrs. Morella. Ms. Wicks, I know as the Executive Officer, 
you make sure they have whatever they need and you kind of 
monitor them. Are there any comments you wanted to make before 
we go to questioning?
    Ms. Wicks. No.
    Mrs. Morella. All right. Well, we have you there as a great 
resource.
    We all know that outcome measures, as referred to in many 
instances, are really important. I know GAO has identified them 
too. I would ask our judges in particular what standards does 
the Court believe are needed to gauge the effectiveness of the 
court? Judge Wagner, you listed some strategic roles, that the 
courts strive to provide fair, swift, accessible justice, 
enhanced public safety and ensure public trust and confidence 
in the justice system. I am wondering, how should this 
community and the Congress gauge your performance in meeting 
your strategic goals?
    Judge Wagner. I think our strategic plan will include in 
some way measures nationally recognized in appellate and trial 
court performance standards which have been developed by the 
National Center for State Courts and the Appellate Court 
Performance Standards Commission. There are, as you indicated, 
several areas that are measured. These include in the trial 
court, access to justice, expedition and timeliness, equality, 
fairness and integrity, independence and accountability, and 
public trust and confidence. On the appellate court, they 
include quality of the judicial process, public access, case 
management and efficient use of public resources.
    As we move along in developing our strategic plan, our 
intention is that these performance standards will be 
incorporated to assure that those priorities that we have 
identified, as well as the work that we are performing, do 
measure up to those standards.
    Apparently the National Center for State Courts which, as 
you know, is a premiere national organization that was 
established initially by Chief Justice Berger to assist State 
courts to function better, has developed these standards. They 
have been working with courts throughout the Nation, with State 
court systems.
    We have an expert, Daniel Straub, who is an instructor at 
the Institute for Court Management, assisting us to incorporate 
these standards into our evaluation mechanisms.
    Mrs. Morella. I appreciate the efforts in developing the 
strategic plan. I am wondering when will the plan be completed. 
The National Center for State Courts, as you mentioned, has 
developed a trial court performance standard and measurement 
system that would incorporate 75 measures for assessing 
assessibility, timely processing of cases, public education.
    Does the Court plan to include the National Center's 
measurement system into its management system?
    Judge Wagner. That is our intention, yes.
    Mrs. Morella. How about a timeline?
    Judge Wagner. We are presently in the process of 
information gathering from employees, attorneys and litigants. 
I am not sure that was the very first one, but we started 
preparing survey instruments for these various stakeholders at 
our Joint Judicial and Bar Conference in April. We distributed 
these surveys. We have gathered information from the bench and 
from the Bar in an effort to set our performance goals.
    After getting input, we will identify best practices from 
around the country to help us establish performance 
expectations and optimal operations. We are looking at trends 
and demographic projections for what our caseload might be 
expected to be in the future and we will then develop the 
courtwide strategic plan. It will be based on these trial and 
appellate court performance standards. We do expect the 
anticipated date will be October 2002. We expect after that, it 
will take 2 years to fully implement the plan and focus 
performance objectives at the divisional level.
    That does not mean that there will not be work in progress; 
however the plan itself, we do anticipate having by October 
2002.
    Mrs. Morella. Who reviews the plan when you get it by 
October? Does the plan go into operation immediately or does it 
go through further review, transition?
    Judge Wagner. My hope would be that by October 2002, when 
it is on paper, that it would be a ready product. Whether it 
would have gone through every level of review, I really cannot 
answer that for you at this moment. I guess I would have to 
gauge how much review goes in before the final product we 
expect in October, i.e., how much review precedes the October 
2002 date.
    My expectation is that most judges and many in the legal 
community would have reviewed the product by then.
    Mrs. Morella. I would hope that it would really be an 
operation by that time having gone through all the different 
reviewers and stakeholders.
    I didn't know whether or not the other judges, Judge King 
or Judge Satterfield, would like to comment on that aspect of 
the strategic plan?
    Judge King. The strategic planning effort is one that 
involves both courts and we have a Senior Leadership Committee 
which draws on representatives from both courts including both 
chief judges and judges from both courts and senior staff. Much 
of what you just heard applies as well to the Superior Court.
    The standards involved for trial courts obviously are 
weighted much more toward things like convenience of access to 
large numbers of the public, timeliness and pre-trial and trial 
activity in the cases and things that are uniquely applicable 
to trial. It is the same set of performance measures that we 
will be referring to only it will be those uniquely applicable 
to trial courts. We anticipate shaping our implementation very 
much in accordance with their dictates.
    I would say as to the measures we are going to be applying 
as Judge Satterfield said, some of the things we are not 
waiting for, we already know some things that we can begin to 
measure more fully, particularly in the Family Court to keep 
track of how we are doing in bringing cases to permanency and 
what sort of safety measures we can determine.
    Mrs. Morella. Has the Court conducted any survey of 
satisfaction of the various users of the activities of the 
Court?
    Judge King. In the strategic planning project, yes, we 
have. In fact, in response to your question as to how much 
review would take place, Chief Judge Wagner is exactly on 
point. The process is so much a consultative process as we go 
along that much of the review will have been done.
    We surveyed the Bar, we are surveying jurors, we have 
surveyed and plan to survey members of the public so that there 
will be some relevant input from every agency, lawyer, official 
or others who have some reason to have an involvement with the 
courts. That is very much a part of the strategic planning 
process.
    Mrs. Morella. I note there has been a decline of cases 
before the courts. I have some figures here. In 1991, there 
were 18,000 civil cases; in 2001, there were 9,000 civil cases. 
That is a tremendous drop. Felony indictments dropped from more 
than 7,000 in 1997 to about 6,000 in 2001. I am curious about 
the judges' observations on this phenomenon. How is this 
decline for the positive? How was it attained?
    Judge King. A number of things have taken place in the 
civil area. We are now a little more than 10 years into a major 
reorganization almost on the dimensions of the reorganization 
of the Family Court that the legislation has made possible for 
us.
    I think there is another factor I have been made aware of 
in the strategic planning and consultations for the long term 
construction plans for the Family Court and other parts of the 
Court. That is that in court systems around the country, there 
has been observed a cyclical nature to the caseloads, so that 
what may be down now could go up again in 2, 3 or 4 years. I 
wouldn't want to say it is because all of a sudden for the 
first time in the history of the Court, we have stronger judges 
or something else. We don't know that for sure. I think a view 
of caution is required in planning based on where the caseloads 
are.
    Mrs. Morella. I guess it is sort of like the economy.
    Judge King. I think there is some of that. We like to think 
we are doing very well with our civil caseloads. Our criminal 
caseloads we are reducing, we are reducing police overtime, we 
are reducing the number of court appearances and, hopefully, 
causing pleas and other dispositions earlier in the process. So 
all those can help, but I hope we are not all going to the bank 
on the notion that our caseloads will never go up again.
    Mrs. Morella. That ties in with the whole concept of 
staffing. I note the Court has engaged a firm to review its 
staffing requirements. What is the status of the review and 
when will it be completed? Is the review going to compare the 
workload of the Court with other urban court systems?
    Judge King. If I might defer to Ms. Wicks?
    Ms. Wicks. The Court did enter a contract with Booz, Allen 
& Hamilton to look at our staffing levels and how we determine 
those, in part in response to a GAO review and in part in 
response to fiscal constraints and the need to most effectively 
use our resources. The study has been ongoing. We have extended 
the contract a number of times since January to get additional 
information from Booz Allen.
    Basically, they are proceeding in three phases. The first 
is what they call a weighted caseload model and staffing level 
assessment where they look at existing work flow and workload 
in each division. They are looking at workflow processes, 
functions and activities and the time spent performing each of 
these tasks. They are close to done with that and we expect 
their final report on June 14. We have reviewed draft reports 
and we expect a final on June 14 which will then be reviewed 
in-house and shared with the Joint Committee on Judicial 
Administration for final review.
    The second phase of their study is a workforce planning 
analysis where they are obtaining additional information 
relating to anticipated changes that will impact the Court's 
workload. They will be doing trends analysis and looking at 
shifts in demographic goals and desired employee skill levels. 
They will do a gap analysis to try to determine where 
improvements need to be made, where process reengineering could 
be considered.
    The final part of their study is to actually develop an 
automated tool that we will be able to use in the future. It 
will hold the work force data that they are gathering now and 
it will enable us to do ``what if'' scenarios and to reflect 
changes in our workload by using this automated tool.
    The tool they have actually developed and are going to 
demonstrate it to us this month as well, but it is still in the 
refining stages because they are still collecting data.
    Mrs. Morella. When you continue to renew the contract with 
Booz Allen?
    Ms. Wicks. They are no cost extensions. Booz Allen wanted 
more information from us, we have wanted more work from them. 
In January, for instance, when the Family Court bill was 
passed, we asked them to take a second and new look at Family 
Court in light of the changes that were going to be 
implemented.
    Mrs. Morella. I know their contracted expired in January 
and you renewed it several times?
    Ms. Wicks. Exactly.
    Mrs. Morella. I note that you say the weighted caseloads 
prior to that first phase will be completed on June 14 but then 
you didn't mention anything about timelines or the rest of it, 
the workload analysis which you say there is a second phase?
    Ms. Wicks. Right. It is a three phase project but the 
phases are concurrent, they are not consecutive. They are just 
about complete with the workforce planning analysis as well; 
they are just not to final reporting yet. As I said, on the 
third phase, the tool, they have already designed and developed 
this automated tool and will be testing it for us. I would 
anticipate probably before the end of this fiscal year, the 
entire project will be complete.
    Mrs. Morella. Very good because that was one of the 
concerns we had with the whole concept of the staffing.
    Speaking of cases and caseload and the case clearance rate, 
that I know is the measure you refer to in your statement, 
Judge Wagner, as a pretty good performance measure, the number 
of cases disposed annually compared to the number of cases 
filed but case clearance doesn't measure how long it takes for 
the public to get a decision in its case, the time for 
disposition, the time to the disposition. I commend you for 
providing such time to disposition statistics in your annual 
report for the Court of Appeals; however, as I look at it, some 
of the data is somewhat troubling because it takes a very long 
time, 522 days, for the Court of Appeals to issue rulings on 
cases--that is on page 46. I wondered is there a goal or 
strategy that you for reducing that time?
    Judge Wagner. I think we do. I don't know whether you have 
the entire chart, but for some time we have measured the 
overall time on appeal in segments because there are many steps 
in the process. A party notes an appeal and then a party has to 
get a record. The record consists of documents filed which have 
to be reproduced as well as transcripts of the proceedings.
    We have been monitoring the time it takes for getting the 
transcripts and the records and then the time it takes after we 
get the transcripts and the records to get the briefs from the 
parties. Our goal is to find out what causes the problem and to 
fix it. If you note, for example, the time for filing a notice 
of appeal to filing of the record was 256 of those days. I 
mentioned in my testimony the successful efforts we have made 
in securing transcripts in a more timely manner. The impact of 
securing those transcripts in a more timely manner you will not 
see probably for some time because first, once that gets 
cleared, you will have to have lawyers filing briefs. We have 
to have ready cases, cases that have been fully through this 
entire process before the judges can ever hear them. That is a 
number we believe you will see reduced and that will impact the 
overall time on appeal number.
    Then you move from the time of filing the record to the 
completing briefing. We have rules which specify how long you 
have to file a brief. Nevertheless, we do have people who ask 
for extensions. We have a number of institutional 
representatives who have a number of cases in our court, 
therefore, they have more than one brief to file. Extensions 
are requested, but we try to minimize and discourage the number 
of extensions requested. Thus, we have reduced that number 
between 2000 and 2001 and we hope to continue to reduce that 
number. That accounts for 263 of your days.
    Then it is the time it takes to get on the calendar and 
that depends on how many cases are standing ready to get on the 
calendar. That is 153 days, but that is greatly reduced between 
1999 and 2001. It has gone from 202 days in 1999 to 153 days in 
2001.
    What we do is troubleshoot each of the areas where we are 
having problems. Whether the problem is lawyers not getting 
briefs in on time, or not getting the records on time, or not 
paying for the transcripts where they have to be paid for or 
not paying for the record where they have to be paid for, or if 
it is in-house, where our transcribers are not transcribing 
fast enough, we troubleshoot each one of those areas. I think 
we will have measured successes from our efforts, particularly 
on the transcripts.
    In terms of the time from argument to submission of 
decision, that is 4 months. So once appeals are heard, on 
average, it is not a long delay. I might say that for the 
expedited TPRs and adoptions, the time from argument to 
decision is half as long on the average approximately 50 days.
    Mrs. Morella. I can see some points where there has been 
improvement, others where there hasn't. I am not a lawyer, I 
just look at all these numbers and think they could all use 
improvement, quite frankly. I would respectfully request that 
may be instead of dwelling on this now, maybe our staffs could 
keep posted in terms of what is happening and what is being 
done.
    Judge Wagner. We know it is a complicated issue for people 
to understand who are not dealing with it on a daily basis. We 
have excellent staff dealing with these numbers. They work with 
each segment to make sure you make improvements in each 
segment. Only then will the sum of the parts be improved 
overall.
    Mrs. Morella. Right, and I can see some improvement in some 
areas. By and large, I think the areas could use some 
improvement. I thank you very much.
    I wanted to ask GAO, what standards do you think there 
should be for these outcome measures since you refer to that in 
the GAO report?
    Ms. Ashby. We refer to them in the context of the Family 
Court and in looking at the transition plan, we were somewhat 
concerned because what we saw in terms of measures were mostly 
process measures, input measures and there is nothing wrong 
with process measures and output measures, certainly those are 
appropriate to certain types of activities.
    What we didn't see were what we would call outcome 
measures. In our statement, we listed a couple of examples. As 
an example, the Court could look at changes in the number of 
instances in which adoptions proceed without some type of 
disruption or in terms of length of time in foster care, the 
trends in terms of whether children in foster care are 
undergoing instances of abuse or not and how that changes over 
time. There are outcomes that should be measured and looked at 
to get a full picture of performance.
    It is possible to have a process that is proceeding exactly 
as intended but not reaching the desired outcomes because it is 
not the right process. That is why you need the full array of 
measures in order to make decisions about performance and the 
quality of what is happening.
    Mrs. Morella. Have you, Ms. Ashby, assessed the Family 
Court module of IJIS? Is it able to communicate with the 
District's information system?
    Ms. Ashby. We are not at that point yet. The Court is not 
at that point yet as far as I know. As I understand, later this 
week the Court is going to submit to GAO its request for 
proposal as it attempts to develop and install systems. We will 
review that.
    As stated in our statement, GAO did, in February, issue a 
report on IJIS and we found that basically the difficulty was 
the discipline processes that are necessary to develop a system 
that will meet user needs had not happened at that point. The 
courts agreed and have gone back and revisited a lot of the 
steps and is now instilling that discipline in its processes. 
We are now at a point where there is a draft RFP where the 
Court actually sought information on what on-the-shelf software 
might be available to meet some of the needs and so forth. So 
we are not at the point yet where we can assess how the Court's 
doing with regard to the Family Court.
    Mrs. Morella. Have you reviewed the latest version of the 
RFP?
    Ms. Ashby. We have not. As I understand, we will get that 
later this week.
    Mrs. Morella. Judge King.
    Judge King. I think she is correct. When we get the final 
plan to them, I assume, at least from our point of view, the 
effort has been to work closely with GAO, so that we stay in 
step with the concerns they have and address them promptly. 
There is nothing that would be a worse outcome for everybody 
than to have this project get completed and then have to go 
back and redo part of it. So we are working very hard to stay 
in step with GAO's concerns.
    What I can say on the question you raised about 
communication with the rest of the District is that we have 
locked in contracts for one of two or three of the most 
universal platforms in use in the District and around the 
country for communication across different systems. So our goal 
is going to be to design a system which anybody can use at 
whatever level they are capable of sharing data with us without 
detriment to either us or to them. We have already taken a 
significant step in locking in software licenses on an 
important piece of that software.
    Mrs. Morella. Ms. Wicks would like to comment.
    Ms. Wicks. If I could add, it is my understanding that 
staff from the GAO and our IT Division will be meeting on 
Friday to go through a final RFP. Since we have been working 
closely with GAO, we are quite hopeful that everything has been 
ironed out and we will be able to go forward and issue that 
RFP.
    Mrs. Morella. Yes, Judge Satterfield?
    Judge Satterfield. If I may respond to some of the outcome 
measures, not the IJIS system, I have started to work with Dr. 
Golden about measuring certain outcomes because we have common 
goals for children and we have to measure it jointly because 
some of the information in terms of measuring is with the 
agency and some is with the court. So when we talk about things 
such as disruption of adoptions, those are sort of joint things 
we can do together to measure.
    The processes that have been developed are important 
because they lead to timely decisionmaking for the children and 
better quality hearings for the children. That results in 
achieving permanency for the children a lot quicker. So we are 
working on these outcome measures. We recognize that and intend 
to continue to collaborate and work with the other stakeholders 
who have the information we need and share that information so 
that we can reach the outcomes we all agree are necessary to 
achieve our common goals for children.
    Mrs. Morella. Judge Satterfield and Judge King, have you 
determined or delineated what the qualifications are of the 
judges?
    Judge Satterfield. Yes, we have and we are pleased to say 
that they are all qualified from experience, training or both. 
We have had a significant amount of training for these judges 
over the last few years in domestic violence, in abuse, 
neglect. We train these judges at the end of each year before 
they go into assignment. We give these judges a pre-service 
before they become a judge and are assigned. As indicated 
earlier, a number of the judges in the Family Court now were 
judges already serving cases of children and families within 
our Family Division. So we have a training program, we have a 
wonderful curriculum that addresses a number of the topics 
contained in the Family Court Act and are going to continue to 
provide the training.
    That is one of the things that excited the judges about 
coming to the Family Court, that there would be ongoing 
training and ongoing opportunity to better themselves and how 
they serve these cases.
    Mrs. Morella. I was curious before this hearing about the 
number of senior judges that have been assigned to the Family 
Court. If I remember your testimony, Judge King, you said two. 
Would you like to comment on that?
    Judge Satterfield. Right now there are two senior judges 
who still have abuse and neglect cases. Judge Burnett who also 
has helped us out with our adoptions, has been a stellar judge 
in family matters and another judge who is experienced in 
family matters. I think Chief Judge King said their cases just 
like the other judges are going during the transition period 
back into Family Court. As he said, we do not intend to use 
senior judges except if it is an emergency situation.
    We are going to do a fair amount of training, so it would 
be necessary to have a qualified senior judge in family law to 
do emergency hearings while the other judges are doing the 
training, or in situations where a judge may go out on medical 
leave, but we will strive hard to make sure it doesn't hurt the 
case management approach of one judge/one family by giving them 
types of cases that are not part of that case management 
because not all the cases we do in Family Court do lend 
themselves to one judge/one family. In other words, we don't 
expect they will be handling abuse and neglect cases except if 
they were going to handle the emergency hearings that come up 
when the Court is training.
    Mrs. Morella. So have any senior judges been assigned to 
the Family Court and how many?
    Judge Satterfield. No, they are not assigned to the Family 
Court now.
    Mrs. Morella. They have not been assigned and will not be 
assigned to the Family Court?
    Judge Satterfield. One clarification. Judge Burnett has 
been resolving some of the adoption cases that he had last year 
when he was assigned to the Family Division and he is working 
on that because we want to increase the number of adoptions we 
have. Using him as well as Judge Shuger has helped us, with the 
Child and Family Services Agency, to achieve certain benchmarks 
they had to achieve this year on adoption cases.
    Mrs. Morella. One final question in the interest of time 
and we would love to be able to send some questions to you, and 
I know you love to receive them.
    This would be to Ms. Wicks. Your annual financial report is 
prepared using a modified accrual method of accounting and your 
monthly financial reports are prepared on a cash basis. How do 
you reconcile the different accounting treatments? Do you 
prepare a monthly financial report using the modified accrual 
treatment?
    Ms. Wicks. We use GSA as our contractor for payroll and 
accounting. The payroll function has been adequate for us but, 
as your question points out, the system lacks a general ledger 
which makes it very difficult for us to efficiently handle 
financial management. We are certainly capable of doing it, but 
what we have to do at this point is use several standalone 
software applications and spreadsheets and various tools to 
reconcile the fact that there is both obligation basis 
accounting and this cash basis.
    We produce monthly reports. We receive information from GSA 
to prepare those reports and provide the information back to 
GSA to prepare the reports for you. Our long term goal is to 
develop our own financial management system which will 
integrate and reconcile these two methods of accounting and 
really provide a more budget oriented report.
    The GSA monthly reports look at expenses, in and out the 
door. What we really need is to budget for these and start with 
a budget figure at the start of the year and then each month 
come off the top budget figure and see how much we have and 
balance this in the different operating divisions. We do it now 
manually. If you take a new look in our 2003 budget, you will 
see a request for funding to develop an integrated financial 
management system with a general ledger function.
    Mrs. Morella. May I ask how that relationship with GSA has 
worked?
    Ms. Wicks. The relationship is fine. It is a contractual 
relationship. We are their largest customer, they can't really 
provide the services we need at this point in time, so we are 
negotiating with them to see if they will be capable of 
providing what we need or if we should be looking to another 
vendor or develop our own system.
    Mrs. Morella. Please keep us posted.
    I want to thank the panel and I now want to defer to 
Congresswoman Norton if she has any final questions for the 
first panel.
    Ms. Norton. I will ask only a few questions. I am assuming 
most of my questions have been asked. I apologize again that I 
have another hearing which also raises important issues for my 
District that I had to attend and therefore missed part of the 
testimony. If I begin to ask a question that has been asked, 
please stop me before I kill.
    Let me begin this question with the notion of the 
transition period. Mr. DeLay was very impatient with the notion 
of a transition. I had to talk long and hard about the need for 
a transition, the time for transition but he was justifiably 
interested that the transition take place and take place 
without delay.
    You had a structural problem literally and metamorphically, 
namely space. I was concerned that the GSA indicated the way in 
which space goes--often the case when you build space--the neck 
bone is connected to the thigh bone or whatever and if it 
doesn't fall in place, the next one doesn't fall in place. The 
GSA mentioned the absence of alternatives. Assuming there is a 
glitch in this interdependent space plan being put in place, 
what I want to know because there will be real consternation in 
the Congress, if there is something you tell us you couldn't 
help because you couldn't, because you can't always deal with 
how construction does or does not fall in place and it 
notoriously does not fall in place often, the Congress is not 
going to want to hear that I am sorry, there were construction 
delays. The Congress is going to want to hear that we went to 
Plan B on a temporary basis and put in place.
    Judge King. Let me make an observation. I very much 
appreciate that concern. There are parts of the implementation 
that would be extremely costly and time consuming to try to go 
out and rent duplicate space unless we knew we absolutely 
needed it. Of course, if we had to, we would. In fact, I did an 
early assessment myself of space alternatives to what the 
architects were planning as a way of just making sure we 
understood what they were telling us. I can say the result of 
that survey was that other than our court buildings in the 
justice campus, it becomes geometrically more complicated to do 
firm alternatives farther out.
    As for the short term, getting the people in so we can 
bring all the cases back into the Family Court, we have looked 
at some alternatives in our space. It would be cramped, but we 
would figure out a way to do it.
    Ms. Norton. Judge Satterfield.
    Judge Satterfield. I was going to add to that. One of the 
important pieces of the Family Court Act is that we move the 
cases from outside of Family Court back in during this 
transition period, so we are looking at alternatives if the 
space isn't built out as we want it, to make sure we find some 
space. As the Chief Judge says, it may be smaller than the 
average space that we use but we want to have more magistrate 
judges hearing more of those cases so we can achieve 
permanency. So we are looking at those options of building out 
smaller spaces temporarily until the major overall of space is 
done, if we run into those problems as identified in the GAO 
report.
    Ms. Norton. I am not sure what building out smaller space 
means but whatever it means----
    Judge Satterfield. Let me clarify, smaller space so that we 
can have hearing rooms to hear those cases so those judges can 
actively work those cases. When I talk about smaller space, I 
am talking about hearing rooms.
    Ms. Norton. I appreciate, Judge King, that nobody would go 
out and rent space that is not what we are talking about. 
Creatively one would have to think about things like 
subdividing space and the rest of it temporarily. All I want to 
do is prevent a controversy from developing on the Hill. I 
don't like to deal with problems after they develop, 
particularly when they are problems people could not have 
foreseen and cannot do anything about. It will raise a problem 
here because the GAO pointed out the problem.
    I would advise the Court to consider what kinds of 
alternatives might be available, not because you want to move 
to them but simply because you may have to and you could more 
easily do so if you had a few options on the table to think 
about.
    When Judge Judy Rogers was the Chief Judge, she worked 
closely with me and in fact, was very energetic about getting 
an appellate court. When you say your court hears more cases, 
the Congress should understand it is not because the District 
of Columbia has more cases than anyplace in the United States; 
it is because it doesn't have an intermediate court. So you go 
straight from the trial court to the court of appeals.
    Actually, we worked hard on it here, there wasn't a lot of 
interest in it, particularly in the Senate. I note that even 
though there has been some criticism of the Court for backlogs, 
the fact is caseloads have declined fairly remarkably. Felony 
and reinstatements have declined by 14 percent over the past 5 
years; civil actions declined by 49 percent over the past 10 
years. Does that mean that the Court--the Superior Court--
believes that without an intermediate court, given these 
declines, that these declines are not simply because they have 
taken place over a period of an entire decade, are not simply 
declines that are short term, that could rise again, but are 
structural declines and perhaps the Court is performing in a 
satisfactory way, all things considered, without yet another 
subdivision of the Court?
    Judge King. I did address that.
    Ms. Norton. Then don't answer it. I don't want to take the 
time.
    Judge King. It is a mixture of things. I hope that we have 
made some gains on the caseload.
    Ms. Norton. You answered the bottom line question, whether 
you need an intermediate court? You have answered that for our 
record?
    Judge King. From my point of view as the trial court, I 
would say no, we don't need it but I would defer to my boss, if 
I might.
    Ms. Norton. Judge Wagner.
    Judge Wagner. This is not a question I could answer 
immediately at this hearing because, as indicated, there are a 
number of issues related to population increase, caseload 
trends, a lot of issues affecting today's reality that we have 
to look at, that we have not looked at, in order to answer your 
question today.
    What we do know is, insofar as our caseload is concerned, 
that there are fluctuations over 10 years. It shows that right 
now the filings are down, but our space planners tell us that 
in constructing courts throughout the country, you have to look 
at caseloads for a period of time.
    Ms. Norton. The reason these are significant, Judge Wagner, 
is that the figures I just read were 10 year figures. I am 
aware from year to year you get fluctuations but these are 
declines over a period of 10 years. They would tend to argue 
against an intermediate court.
    Judge Wagner. My suggestion would be that bench, Bar and 
the others who are stakeholders in this examine this in light 
of the strategic planning that is underway. We certainly will 
have a great deal of information from which to make an informed 
judgment about what is necessary now. So I would like to work 
with you on that.
    Ms. Norton. I would not submit a strategic plan that did 
not speak to that issue one way or another particularly in 
light of these figures and in light of the difficulty I had in 
trying to get the court. I don't think it would be doable but 
we do need to do as long as you are doing a strategic plan 
whether or not somehow in the foreseeable future down the road, 
you think this court would need an intermediate court.
    Judge Wagner. I think there are just a few States.
    Ms. Norton. Thank you very much, Madam Chair.
    Mrs. Morella. Thank you, Congresswoman Norton. Just one 
final question. I mentioned in my opening statement the fact I 
saw there was $18 million left in the Crime Victims 
Compensation Fund. I am curious about the number of claims, 
increased by 39 percent in 2001 to a total of 1,538. I just 
wonder why is there that slowness in dispensing the 
compensation? What percentage of individuals who filed in 2001 
received compensation?
    Judge King. I think generally the fund is becoming better 
known, so I hope it will continue to increase in its use, but I 
am going to defer Ms. Wicks.
    Ms. Wicks. As you mentioned, we did serve about 1,500 crime 
victims last year which is a fifteenfold increase from the year 
before we took it over, 1996 when 140 victims were served. It 
is a matter of outreach, people recognizing that the funding is 
available. The $18 million surplus is something that 
accumulated over a number of years.
    I think, as you are aware, there was language in the 2002 
Appropriations Act that the District of Columbia could receive 
50 percent of the unobligated balance in that account. We have 
been working with the District of Columbia in order for them to 
have access to that balance. Currently they have submitted 
their plan to Congress on how they have used those funds and 
how they will get better outreach to the community and better 
victim services.
    The problem right now is a technical problem. The District 
needs the money to be ``no year'' money so that when the moneys 
transfer over, they have the ability to use the money. We are 
working with the District and are ready to transfer about $12 
million in crime victims money to the District. They cannot 
receive the money as yet.
    As far as ongoing claims, day in and day out, in this 
fiscal year, we are up to $2.6 million in claims going out the 
fund takes in, I would say, roughly $6 million a year. We are 
approaching where we are providing 50 percent of the funds back 
out annually.
    Mrs. Morella. But you haven't given any of the funds back 
yet?
    Ms. Wicks. To the District?
    Mrs. Morella. Why not?
    Mr. Wicks. We have tried to give funds to the District. Mr. 
Ghandi has asked us to retain the funds until he has the 
ability to take them and use them.
    Ms. Norton. Madam Chair, apparently the bill is in second 
reading today. This has been one of the great tragedies. I go 
on the streets and victims of crime, to give examples, the 
District doesn't have enough beds for women who are victims of 
domestic violence and here we are sitting on this money.
    Part of this is not the Court's fault. Part of this is the 
Court was giving out money to victims. The way this was set up, 
it was kind of on a retail basis. Do you need some money? Of 
course if somebody comes forward to say you need some money, 
you have to show a series of things in order to get money on a 
retail basis. That is not the way to give the money out if you 
are interested in dealing with victims of crime.
    For example, somebody who is no longer in her house because 
of domestic violence may not have come before the court and may 
not yet have been adjudicated a victim of crime, but that 
person doesn't have any place for herself or her family to 
stay. We were so concerned about this money building up in a 
bank that we got the Appropriations Committee to give 50 
percent of the money to the District Government so it could be 
used more broadly, in a broader definition of what a victim of 
crime is.
    Some of this money is going to go for a Child Advocacy 
Center, something we desperately need, a one shop place where 
an abused child can come--many jurisdictions have these child 
advocacy centers but we haven't had the money to do it.
    Mrs. Morella. But nothing has been done, right?
    Ms. Norton. Part of this has to do with the bill that is in 
the second reading. That is why I wanted to get that on the 
record. The bill is in the second reading. The bill is indicate 
where this money is going, it is going to be a revolving fund. 
Some of the money is going to be used not on a retail basis but 
on the basis in which victims come forward which is often the 
need for bed space for a mother and child who have no place to 
go, sometimes for victims advocates at the Metropolitan Police 
Department. You point out a very important issue.
    This has been out there for years ever since 1997 when the 
fund was created because we thought it was a wonderful thing. 
It became available when the Federal Government took over the 
court costs. I think now that the bill it coming to second 
reading and going to existence any day now or any week now, we 
need to follow whether or not this is a better way to allocate 
the money.
    I don't think anyone should have a proprietary sense of 
this money. The Court has wanted to hold onto this money, even 
given the fact the money wasn't being spent. It seems to me the 
best way to look at this money is who can spent this money and 
get it to victims of crime without some court driven, law 
driven definition of what a victim of a crime is.
    We will be following this very closely because we are going 
on 5 years or so now where essentially we have allowed this 
money to buildup, knowing full well there are people who 
anybody in the general public would know has been a victim of 
crime but because of the way the fund is structured, we have 
not been able to get these resources to them.
    Mrs. Morella. In Maryland, they have a Criminal Justice 
Compensation Committee and Fund also. It is a requirement to 
notify victims that this is available. I think as part of your 
outreach you should consider that in addition. Did you want to 
comment?
    Ms. Wicks. I would love to comment on that. The Court has 
to follow Federal statute on eligibility for reimbursement to 
the crime victims. We do outreach. MPD carries cards that we 
provide to give out at all crime scenes to anyone, family 
members or direct victims, who may be eligible for 
compensation. We give out cards at the local hospitals; we are 
working with child abuse victims and domestic violence victims. 
People do not have to be court involved to apply for and 
receive funds from the program.
    The Court has been very actively involved with the District 
to try to get the moneys over to the District. The District's 
plan, it is not constrained by these Federal requirements as to 
the way the court's program is structured. So they will be able 
to provide less direct individual victim services, but more 
services such as establishing child advocacy centers, which we 
all know benefit victims but not specific individual victims 
having to come forward.
    The Court quite honestly rather than trying to retain these 
funds. We were required by the Appropriations Act to turn the 
$18 million in to the U.S. Treasury at the end of the last 
fiscal year, I believe, on October 30 which we did do according 
to law. Then we immediately worked in response to the city's 
request to get the Treasury Department to transfer the money 
back so we could keep it available to the District.
    Ms. Norton. The reason is if the money isn't spent, the 
U.S. Government claims the money. What we have to do is look at 
this 50 percent and see if it gets spent and review whether or 
not it works. I am not blaming the Court for this and you are 
absolutely right about the Federal guidelines but we can't 
allow that situation to go on much longer, given quite 
desperate needs in the District while we sit on this money and 
let it grow.
    Ms. Wicks. We totally agree. I think the issue right now is 
the $18 million because that money expires; the Federal 
Government wants to take it. Annually, obviously there is not 
$18 million. If $6 million is going in to the fund and each 
year we are paying out more and more to victims, we are at $3.5 
million, next year it will be $4.5 million, there is not going 
to be that balance available in the future. So it is very 
important that the District gets that balance now because it is 
a one-time opportunity for a large infusion of money to do some 
victim assistance.
    Ms. Norton. If I could put on the record, the bill sets up 
a revolving fund so that this money does not get reclaimed by 
the Treasury. It must be reclaimed by the Treasury as we think 
of how to retain the money. The bill that is its second reading 
will be a revolving fund so the Treasury won't come in an 
snatch the money out.
    Ms. Wicks. Exactly.
    Mrs. Morella. I want to thank the first panel for being 
with this for such a long period of time and appreciate what I 
call a work in progress. We look forward to having further 
updates. Thank you Ms. Ashby, thank you Judge Wagner, Judge 
King, Judge Satterfield and Ms. Wicks.
    If the second panel that has been so patient would come 
forward: Steve Harlan, Dr. Olivia Golden and Arabella Teal.
    We have the distinguished Stephen Harlan, Chairman of the 
Board, Council for Court Excellence; Dr. Olivia Golden, 
Director, District of Columbia Child and Family Services; and 
Ms. Arabella Teal, Principal Deputy Corporation Counsel, 
District of Columbia.
    I am going to ask if I might swear you in. Please stand and 
raise your right hand.
    [Witnesses sworn.]
    Mrs. Morella. You have responded affirmatively. We will 
start with Mr. Harlan. It is good to see you. I notice there 
has been an addition fully cultivated and it looks very good. 
Thank you, sir.

 STATEMENTS OF STEPHEN HARLAN, CHAIRMAN OF THE BOARD, COUNCIL 
FOR COURT EXCELLENCE; DR. OLIVIA GOLDEN, DIRECTOR, DISTRICT OF 
    COLUMBIA CHILD AND FAMILY SERVICES; AND ARABELLA TEAL, 
   PRINCIPAL DEPUTY CORPORATION COUNSEL, DISTRICT OF COLUMBIA

    Mr. Harlan. Thank you, Madam Chair.
    We really appreciate being invited to be here today. As you 
pointed out, my name is Steve Harlan and I serve as Chair of 
the Council for Court Excellence and have been so since 
December 1998.
    Having served on the D.C. Financial Control Board and 
focused my attention while on that board to oversight of public 
safety, i have a special interest in court operations and 
citizen participation and understanding of the courts.
    Not at the table, but here with me today, I am joined by 
Sam Harihan, the outgoing Executive Director of the Council for 
Court Excellence. This is almost his last day which is 
tomorrow. Jeanne Bonds, our new Executive Director, is here 
today; as is Priscilla Skillman.
    I am honored to present the views of the Council for Court 
Excellence to this committee. The Council is a non-partisan, 
non-profit civic organization that works to improve the 
administration of justice in the local and Federal courts and 
related agencies in Washington, DC. We have worked closely with 
the Senate and the House District of Columbia Subcommittees in 
the past on such issues.
    We have submitted full written testimony and I will touch 
on the highlights this morning. I would like to point out that 
no judicial member of the Council for Court Excellence 
participated in or contributed to the formulation of our 
testimony here today.
    Overall, we have found through our independent 
observations, analyses and studies that the D.C. Trial Court 
and Appellate Court possess and excellent bench. There are many 
examples where the D.C. Courts function well. For example, the 
D.C. Drug Court, the Domestic Violence Court and the Civil II 
courts each represent aspects of the Trial Courts which appear 
to functioning well and the D.C. Superior Court should be 
commended for the implementation of these courts.
    However, there is room for some improvement, especially 
with respect to the openness of the courts and their ability to 
present timely data to the community that shows how well they 
are operating and progressing. We are encouraged by the fact 
that the D.C. Courts are now undertaking a strategic planning 
process to focus on long range planning and self assessment.
    Using some of the nationally recognized performance 
standards and that the courts have invited a variety of groups 
and individuals, including us, to make comments and participate 
in discussions with the Court's Strategic Planning Council. I 
would like to take a few moments to focus on several recent 
reports and analyses of the D.C. Superior Court operations 
which the Council for Court Excellence has done.
    A major court improvement area in which the Council has 
been engaged for the past 2 years is the facilitation of the 
joint work by the city's public officials to reform the child 
welfare system and specifically to meet the challenges of 
implementing the Federal Adoptions and Safe Family Act of 1997. 
We believe the D.C. Superior Court has done an excellent job 
preparing the Family Court's case management plan and we 
commend the Court both for the inclusive and collaborative 
process followed in developing the plan and for the quality of 
the resulting document. Once fully implemented, this plan 
should yield better, more consistent and more expeditious 
service to everyone who has business before the Family Court, 
especially the city's abused and neglected children.
    We applaud the Court, especially Chief Judge Rufus King, 
Family Court Presiding Judge Lee Satterfield, and Family Court 
Deputy Presiding Judge Anita Josey-Herring, for their strong 
leadership and commitment to the success of this planning 
process.
    There are three areas of particular interest to the 
Council. First is calendaring practices of the judicial 
officers; second is support staffing and business processing 
reengineering; and third, training and cross-training programs. 
The D.C. child welfare system will not improve unless the plans 
and reform of the courts, the Child and Family Services Agency 
and the Office of Corporation Counsel are fully synchronized 
and unless the performance of all participants in the D.C. 
child welfare system improves.
    The Court's calendaring process will determine how 
frequently Child and Family Services Agency social workers and 
the Office of Corporation Counsel attorneys will need to be in 
each of the 25 courtrooms handling child abuse and neglect 
cases. The way the courts organize for Family Court judicial 
hearings has a great impact on the resource needs and 
management practices of the Child and Family Services Agency 
and the Office of Corporation Counsel and how these agencies 
will work, how they will be managed and how successful they 
will be in the future. So it all is very interrelated and has 
to be well coordinated.
    Our second area of concern is the Family Court supporting 
staffing and business processing reengineering. The Court's 
transition plan emphasizes the organization and assignment of 
the caseload among judicial officers with little description of 
the Family Court support staffing infrastructure and case 
management processes. Lawyers, other court users, and concerned 
civil groups, like the Council, have strong interest in the 
staffing and processing topics.
    Our third topic of concern is training and cross training. 
The courts planned quarterly in-house and cross-training will 
be planned and presented for the Court and stakeholder 
personnel. The Council has offered to provide any appropriate 
help to the Court and other child welfare leadership team 
stakeholders to plan these training initiatives.
    The second area in which the Council has engaged was police 
overtime for prosecutions and court hearings. We commend the 
Congress for two things you have done. First, you have given 
the D.C. Criminal Justice Coordinating Council demonstration 
funding of $1 million a year for the past 2 years to enable 
experimentation and testing of new approaches. Innovative 
programs like the D.C. Community Court are the direct result of 
Congress providing modest risk capital to the D.C. Superior 
Court and other criminal justice agencies.
    The second critically important thing that Congress has 
done is to hold the courts, the police and other D.C. criminal 
justice agencies accountable to deliver a more efficient and 
effective criminal justice system to the D.C. residents. Just 
as in the case of the D.C. child welfare system, the management 
of police officers over time can only be addressed by assessing 
the entire system and the performance of all participants.
    The Council is concerned with several major areas: 
monitoring the various agencies to assure the reduction in 
police overtime; the reliability of case scheduling and the 
manner in which officers are summoned and the continued funding 
of the Criminal Justice Coordinating Council.
    Time permitting, I would like to briefly mention several 
other topics in our findings. The Council has undertaken two 
separate court observation programs using trained volunteers to 
observe court sessions and provide comments on the court's 
operations. This project provides members of the community a 
direct voice in how their courts are run and a means to provide 
the court with fresh, common sense feedback and perspectives of 
persons who do not frequent the courts regularly.
    Our studies focused on the Civil Division and the Criminal 
Division of the D.C. Superior Court. We have had literally 
hundreds of observations. There were three major findings from 
these two observation projects. First, citizens experienced 
confusion and difficulty finding where to go in the D.C. 
Courthouse. Second, citizen observers were very impressed with 
our judges. Finally, our court observers were fully gratified 
and impressed to observe firsthand the proceedings in the D.C. 
Drug Court.
    Last July, the Council concluded an examination of the 
grand jury system. Our report contained many important 
recommendations. On a practical level, we urged the D.C. 
Superior Court to take steps to reduce the size of the grand 
jury; to further reduce the amount of time citizens spend on 
grand juries; and to relocate the Superior Court grand juries 
from the present, inappropriate home within the U.S. Attorneys 
Office to an appropriate court building. We think that should 
be a part of this whole facilities planning operation.
    In 1989 we undertook our first study of the civil trial 
case processing along with recommendations for improvement. The 
D.C. Superior Court responded with a comprehensive civil case 
delay reduction plan. In our 2002 report, which will be off the 
presses tomorrow, we looked back and assessed the past 10 years 
and found the reforms implemented by the D.C. Superior Court in 
1991 significantly reduced the time for civil case filings and 
disposition. Our recent report documents that as of 1999, the 
D.C. Superior Court's Civil Division disposed of 81 percent of 
its cases within 12 months; 86 percent within 18 months; and 99 
percent within 24 months. That is a very good record.
    In conclusion, we would like to highlight several other 
areas. First, as I said the willingness of the D.C. courts to 
demonstrate their improvement and performance in the community 
through regularly, publicly released and timely statistics will 
encourage public understanding. Specific statistics will 
highlight trends and enable courts to objectively assess 
whether they are or are not operating plans and that they might 
need adjustments. The successful design and implementation of 
the court's planned Integrated Justice Information System is a 
critical element in this commitment to transparency.
    Second, public distribution of court budget priorities will 
enable the community to provide input as to whether or not 
those priorities match the trends and focus of the issues of 
importance to the citizens the courts serve. We encourage the 
D.C. courts to consider analyzing all their operational data 
against American Bar Association standards as a number of other 
States already do, and publicly show the community their 
progress.
    Third, now and in the coming years, as the number of pro se 
litigants continues to increase generally and in specific 
areas, our courts will need to address self service 
opportunities at the courthouse and electronically to handle 
the public's interaction with the courts. Careful planning, 
innovation and coordination of the professional staff for 
efficient processing in these areas needs to begin now.
    The majority of our testimony today has been addressed to 
the trial court issues. It is important that the needs of the 
D.C. Court of Appeals be understood and addressed as well. We 
have long been troubled by the delay in the appellate court. It 
was a concern 10 years ago and it is a concern today.
    We thank the subcommittee for your policy and fiscal 
leadership in overseeing the D.C. trial and appellate courts 
and we thank the D.C. courts for the plans it has laid out for 
itself and the manner in which it has received our various 
recommendations. We look forward to working with the D.C. 
courts and with Congress as you continue to bring planned 
reforms to fruition.
    I am happy to answer your questions.
    [The prepared statement of Mr. Harlan follows:]

    [GRAPHIC] [TIFF OMITTED] T5723.049
    
    [GRAPHIC] [TIFF OMITTED] T5723.050
    
    [GRAPHIC] [TIFF OMITTED] T5723.051
    
    [GRAPHIC] [TIFF OMITTED] T5723.052
    
    [GRAPHIC] [TIFF OMITTED] T5723.053
    
    [GRAPHIC] [TIFF OMITTED] T5723.054
    
    [GRAPHIC] [TIFF OMITTED] T5723.055
    
    [GRAPHIC] [TIFF OMITTED] T5723.056
    
    Mrs. Morella. Thank you for your service on the Council for 
Court Excellence as well as your work earlier on the Control 
Board.
    I also want to acknowledge, as you did, Sam Harihan who has 
helped to guide the Council for Excellence for I think 20 
years, a long time. You have been an unyielding advocate for 
court reform and we appreciate you being here.
    Dr. Golden, I am delighted to recognize you. Thank you for 
being here.
    Dr. Golden. I am Olivia Golden, Director of the District's 
Child and Family Services Agency. You have my written 
testimony, so I will briefly summarize.
    I appreciate the opportunity to testify today on behalf of 
Mayor Williams and Deputy Mayor Graham regarding the 
implementation of the Family Court. I would like to express my 
gratitude for your leadership in the passage of the Family 
Court Act and for the leadership of Chief Judge King and 
Presiding Judge Satterfield in the implementation of the act. I 
believe we have entered a new era of collaboration with the 
Court.
    I would like to express appreciation for several broad 
themes included in the Court's transition plan for implementing 
the act, the clear focus of the plan on children's safety and 
prompt movement toward permanence; the commitment to move 
immediately to a one judge/one family approach for all new 
abuse and neglect cases; the commitment to joint decisionmaking 
with stakeholders; and the commitment to team work among all 
those who work with children.
    Within the District, we have laid the groundwork for 
implementation of the act over the past year by dramatically 
expanding and restructuring legal support for CFSA. In the 
past, in an agency with as many as 1,500 court hearings a month 
regarding abused and neglected children, the work of social 
workers used to be supported by only 16 abuse and neglect 
attorneys, meaning social workers were generally not 
represented in court and there was rarely time for attorneys 
and social workers to prepare together and provide the court 
with high quality information.
    We now have 39 attorneys on board and are covering 
approximately 85 percent of all court hearings. We have also 
reformed the structure of legal services to create an attorney/
client relationship with agency social workers and we have 
completed the co-location of attorneys and social workers to 
facilitate communication. We are currently awaiting the 
completion of a staffing study commissioned from the American 
Bar Association which we expect to recommend that we convert to 
vertical prosecution meaning a single attorney will keep the 
case from just after the initial hearing through the permanency 
decision consistent with the Court's one judge/one family 
structure.
    My written testimony includes many examples of 
collaborative planning and early victories in implementing the 
Family Court legislation of which I will mention two here.
    CFSA, the Court and other stakeholders worked together to 
identify those cases that are best suited for an immediate 
transfer into the Family Court. We chose cases where the 
transfer could make an immediate difference to the child's 
chance of growing up in a permanent family. For example, we 
chose cases where a child has been living for a long time in a 
kin setting that is well suited to adoption or guardianship and 
as a result of the close relationship with the Court that we 
have developed through the Family Court process, we are now 
likely to achieve our goal of 328 finalized adoptions in the 12 
months ending May 31, 2002. This goal set for us by the Federal 
Court Monitor represents a substantial increase over the 
previous 12 months and it is only within reach because our 
collaboration with the Court has streamlined the process.
    As a key next step in Family Court implementation, we look 
forward to continuing our work with the Court, highlighted also 
by Judge Satterfield, to reduce the number of judges hearing 
abuse and neglect cases. This is of vital importance because 
reducing the number of courtrooms makes possible the support 
and training for a core group of judicial officers envisioned 
in the act, reduces scheduling conflicts for attorneys and 
social workers, increases the amount of time social workers are 
able to spend in the field, and therefore allows higher quality 
case management on behalf of children.
    My written testimony goes on to provide additional 
information on the status of child welfare reform in the 
District. Ten days from today marks the 1-year anniversary of 
the termination of the Federal Court receivership on June 15, 
2001. Since that time, the pace of reform in the District's 
child welfare system has been extraordinary. I know this 
committee has been a part of it all the way.
    Coupled with the work of the Court, the reforms initiated 
by the District have created a unique window of opportunity to 
enhance the well-being of children in the District. As I say, 
the details or in my written testimony. I would be happy to 
answer questions.
    I would like to conclude by highlighting two next steps for 
the attention of the Congress over the coming months. First, I 
would like to express my appreciate to the Congress for 
focusing in the Family Court Act on the need to develop border 
agreements among Maryland, Virginia and the District in order 
to ensure prompt movement toward permanence for the District's 
children.
    We are currently working closely with Maryland to secure an 
agreement. In fact, I am delighted to report a very successful 
meeting in Baltimore yesterday with Maryland Secretary, Imelda 
Johnson. We look forward to continuing to update the Congress 
on progress and next steps in the agreements with both Maryland 
and Virginia.
    Second, I am extremely appreciative of the support of this 
committee for the District's proposal that Congress increase 
the Federal reimbursement rate for foster care and adoption in 
the District to 70 percent, the same reimbursement rate as 
Medicaid, as in all other jurisdictions. I appreciate your 
support and ask for your continued assistance to ensure 
congressional enactment.
    Thank you for your consistent support of the vulnerable 
children of the District of Columbia and I look forward to 
answering any questions.
    [The prepared statement of Dr. Golden follows:]

    [GRAPHIC] [TIFF OMITTED] T5723.057
    
    [GRAPHIC] [TIFF OMITTED] T5723.058
    
    [GRAPHIC] [TIFF OMITTED] T5723.059
    
    [GRAPHIC] [TIFF OMITTED] T5723.060
    
    [GRAPHIC] [TIFF OMITTED] T5723.061
    
    [GRAPHIC] [TIFF OMITTED] T5723.062
    
    [GRAPHIC] [TIFF OMITTED] T5723.063
    
    [GRAPHIC] [TIFF OMITTED] T5723.064
    
    [GRAPHIC] [TIFF OMITTED] T5723.065
    
    [GRAPHIC] [TIFF OMITTED] T5723.066
    
    [GRAPHIC] [TIFF OMITTED] T5723.067
    
    [GRAPHIC] [TIFF OMITTED] T5723.068
    
    [GRAPHIC] [TIFF OMITTED] T5723.069
    
    Mrs. Morella. Thank you very much and I want to just 
reiterate the fact that your testimony in its entirety as 
presented will be a part of the record.
    I am very pleased now to recognize Arabella Teal. Thank you 
for being with us.
    Ms. Teal. Good afternoon. I am Arabella Teal, the Principal 
Deputy Corporation Counsel for the District of Columbia. Thank 
you for the opportunity to testify here today on behalf of 
Corporation Counsel Robert Rigsby.
    I would like to focus my testimony today on how the Office 
of the Corporation Counsel is coordinating with the Family 
Court and other key stakeholders to ensure the elements of the 
implementation plan are completed in a timely and successful 
manner. I have submitted a statement for the record but my 
remarks will briefly address five key areas.
    The first if the role of the Office of the Corporation 
Counsel in the new Family Court. As you know, the District of 
Columbia Family Court Act of 2001 requires major changes in the 
way family law cases are handled. The act replaces the Superior 
Court's Family Division with a Family Court involving matters 
in the Domestic Relations Branch, the Juvenile Branch, the 
Child Support Branch, the Child Abuse and Neglect Branch, the 
Mental Health and Retardation Branch and the Marriage Bureau. 
The act also requires that the Court handle all family cases 
pursuant to a one judge/one family model.
    The provisions of the Family Court Act as well as the 
Superior Court's implementation plan require that my office 
reevaluation the legal structure of all units of our office 
involved in the Family Court process, so that the elements of 
the implementation plan are completed and so that children and 
families are better served by the system.
    The Office of the Corporation Counsel has been very 
diligent in examining these legal structures to determine what 
systemic and internal changes are necessary to support 
efficient and effective implementation. Recognizing that 
safety, support and permanency for children is the primary 
mission of the Court plan, OCC has taken immediate steps to 
address its legal support to the District's Child Welfare 
Agency, as you heard from Dr. Golden.
    In partnership with CFSA, we have accomplished dramatic 
reform by more than doubling the number of attorneys assigned 
to the Legal Services Unit at CFSA. To further assess the most 
appropriate and efficient legal structure for the agency, the 
District has engaged the American Bar Association to conduct a 
staffing study for the Legal Services Unit at UFSA.
    Like CFSA, OCC is awaiting the final results of the ABA 
staffing study to finalize the design of our legal structure. 
Preliminary discussions suggest that the ABA will recommend 
vertical prosecution to allow attorneys to have a greater 
knowledge of their cases and build stronger relationships with 
the judicial teams and social workers. OCC and the CFSA have 
already started to implement the vertical prosecution structure 
as individual assistant corporation counsel are beginning to 
handle cases from just after initial hearing through to 
permanency decisions.
    One of the most significant changes for our office has been 
the full co-location of the Abuse and Neglect Assistant 
Corporation Counsel at CFSA to facilitate and improve 
communication and collaboration among attorneys and social 
workers. Attorneys and social workers are already, we believe, 
experiencing the benefits of coordinated case management in 
advance of hearings that is permitted by co-location.
    While permanency and safety for children are the main goals 
of the Family Court Act and the Court's implementation plan, 
strengthening families in trouble and deciding disputes among 
families fairly are also stated objectives of the plan. 
Consequently, the Family Court Act and the new one judge/one 
family concept required by the act has wide reaching effects on 
many divisions and sections of the Office of the Corporation 
Counsel. The Juvenile Section, Domestic Violence Unit, Child 
Support Enforcement Division, and Mental Health Division also 
have responsibility in the District of Columbia to handle 
matters affecting children and families and are significantly 
impacted by the new legislation.
    It is apparent that as the judicial resources have and are 
expected to increase under the new legislation, additional 
staff and resources in other divisions and sections of our 
office beyond abuse and neglect will be needed for our office 
to adequately support the Family Court one judge/one family 
model.
    Representatives of the various divisions and sections have 
been working diligently with the Court and key stakeholders to 
develop a coordinated resolution of issues that arise as we 
transition to this new system. For example, representatives 
from the Child Support Enforcement Division have been working 
with a court appointed committee to recommend how the Family 
Court can best utilize magistrate judges for child support in 
light of the new one judge/one family approach.
    Various models identifying the point of entry for the 
family and the number of magistrate judges to serve child 
support enforcement cases are being examined to determine the 
most appropriate modification of the legal structure of our 
office to meet the needs of the Court.
    Similarly, representatives from the OCC Juvenile Section 
have been participating in numerous working groups with the 
Court to anticipate the breadth of the impact of the Family 
Court Act and the one judge/one family concept on the juvenile 
justice system.
    Our office has exclusive jurisdiction over the prosecution 
of juvenile delinquency cases in the District of Columbia. The 
present staffing levels in the juvenile section only ensure 
that four designated juvenile courtrooms are continuously 
covered. These courtrooms include two trial courtrooms, the 
Juvenile Drug Court and the arraignments or new referral 
courtroom.
    While it may appear that there could be significant overlap 
in our office's representation of the Family Court, a closer 
look reveals that the one judge/one family concept involves a 
complex set of issues that require an in-depth analysis by all 
stakeholders, as definite development of a set of defined 
criteria to assist the Court in determining the most 
appropriate application of the model that is in the best 
interest of children.
    Moreover, legal restrictions requiring the confidentiality 
of juvenile and mental health records also restrict intra and 
inter agency collaboration and joint multi-agency hearings. In 
order for agencies and parties to share information and allow 
the one judge/one family process to operate in an effective 
manner, various statutes will need to be amended. We are 
working diligently with the Court and various stakeholders to 
do that.
    Mrs. Morella. May I ask you to kind of sum up, please?
    Ms. Teal. Yes. I echo Dr. Golden's comments about entering 
a new era of collaboration with the Court. I think we are well 
on the way to doing that.
    I would be happy to answer any questions you have.
    [The prepared statement of Ms. Teal follows:]

    [GRAPHIC] [TIFF OMITTED] T5723.070
    
    [GRAPHIC] [TIFF OMITTED] T5723.071
    
    [GRAPHIC] [TIFF OMITTED] T5723.072
    
    [GRAPHIC] [TIFF OMITTED] T5723.073
    
    [GRAPHIC] [TIFF OMITTED] T5723.074
    
    [GRAPHIC] [TIFF OMITTED] T5723.075
    
    [GRAPHIC] [TIFF OMITTED] T5723.076
    
    [GRAPHIC] [TIFF OMITTED] T5723.077
    
    Mrs. Morella. The only reason I was rushing you was because 
we have a vote where I have about 8 minutes left to get over 
there. I should do that but I don't want to have a recess. What 
I will do is I will not return but I will take the liberty of 
giving Ms. Norton 15 minutes to sum up the questions. I will 
thank our minority committee staff, Jean Gosa, and Jon Bouker; 
majority staff, Russell Smith, Robert White, Matt Batt, Shalley 
Kim, Heea Vazirani-Fales, Dr. Cassie Statuto-Bevin, with Mr. 
DeLay who has been following closely.
    I thought your testimonies were all great. I would love to 
submit some questions to you too. I am certainly glad you are 
working out those border agreements, Dr. Golden, with Maryland. 
Obviously we have in front of us, too, articles from the 
Washington Post about what was happening with Maryland 
returning the foster children to the District of Columbia. Are 
there enough foster homes, kinship homes, residential homes to 
place these children?
    Dr. Golden. As you saw in the final article in the Post, in 
fact children continue to be in the homes in Maryland, both 
kinship and foster family homes.
    Our agreements for the future have to do with several 
things. First of all, they have to do with making sure children 
can move promptly to kinship homes. One of the problems in the 
past--an enormous burden for the Superior Court--has been there 
might be an appropriate home for a child with a grandmother who 
lives in Prince George's County. The child has been there every 
weekend of their life but in the past, one of the things that 
created problems both for Maryland and the District, there has 
been a very cumbersome, bureaucratic process. So we might have 
that child in a group home in the District waiting for months 
for the process to be approved to live with their grandmother.
    The agreements we are in the process of reaching with 
Maryland--and I want to express my appreciation, particularly 
for Cabinet Secretary Imelda Johnson, who has been wonderful to 
negotiate with--we think we will have an agreement within days 
where we can place a child with a family member in Maryland the 
same way we could in the District or Maryland could with a 
Maryland child based on an immediate check of home safety and 
Child Protective Service clearance but not months of 
bureaucracy. That will be wonderful.
    We also believe we are reaching the right kind of agreement 
about other family homes that might be appropriate for children 
in the District, so we are very excited.
    Mrs. Morella. Please let me know as soon as you reach that 
agreement. It would be great to talk about the regional 
cooperation we experience.
    One final question, how about your recruiting and retaining 
social workers? I know that is a major problem. Does anyone 
want to comment on that?
    Dr. Golden. It is an area where we have made important 
progress but we have a lot more to do. We are currently at 
about 250 social workers, Masters and BSW qualified, about 27 
more at the end of April who we had on board as trainees but 
were not yet licensed and we have to get them licensed to be 
able to carry cases. We are getting much better at doing that 
quickly within a 90-day period. Our goal is 300 licensed social 
workers by the end of the year.
    We have done intensive recruiting this spring with Masters 
and Bachelor's level programs, so we have many people planning 
to start in June-July August. We were also on the point of 
signing agreement with the Federal Public Health Service 
because there are social workers who are within the 
commissioned Corps who can be detailed to us for a period of 2 
to 3 years. That will be very helpful.
    We are also very proud we have just received a grant from 
the Annie Casey Foundation to do targeted recruiting of social 
workers nationally. We hope to be able to learn some things 
useful to child welfare agencies across the country because it 
is a national problem.
    I would say we are at the point of making a difference but 
we are not finished yet.
    Mrs. Morella. It sounds again like it is a good work in 
progress.
    Thank you all very much, Mr. Harlan, Dr. Golden and Ms. 
Teal. I will now defer for the rest of the hearing to the 
ranking member.
    Ms. Norton [presiding]. Thank you, Madam Chair.
    To pick up on the issue of the Maryland border agreement 
the Chair raised, Ms. Golden, I don't think bureaucracy was the 
only problem. Maryland, I think, may have had a number of 
different concerns and I am not sure all of them were valid. 
One of them was certainly valid and that was, that the District 
was not supervising these children in the State of Maryland, 
anymore than the District was supervising the children in the 
District of Columbia. That is to say that the number of visits 
apparently if you were in Maryland, Maryland would expect to be 
made were not being made by the District of children in 
Maryland, so Maryland raised the notion about whether or not we 
were simply dumping these children in Maryland where you 
rightly say they had every reason to be given family and other 
connections and given the fact the District of Columbia could 
never, could never take care of all the children in need.
    Particularly in light of what you just said about social 
workers, I would like to know whether or not we are going to 
live up to what Maryland does for its own children, to make the 
kind of visits so that we will not get into that kind of 
controversy. I am a whole lot less concerned about bureaucracy 
and about some concerns Maryland may have raised that I don't 
agree with. One concern they raised I very much agree with 
because I don't think it is Maryland alone, I think it was D.C. 
as well. I still don't know how Maryland can get social workers 
to visit with greater frequency than the District can, and the 
kind of frequency Maryland requires. The standards problem 
raises a very serious concern.
    You talk about 90 days to get a license, who cares? Pending 
a license, can the social workers be on the job or are we going 
to fall back into a problem that has been a major problem for 
CFSA, the social work problem to which all other problems are 
traceable?
    Dr. Golden. Let me comment on each of those issues. First, 
on visits in general and in Maryland and how we in Maryland are 
working together on them and then on the licensing issues.
    We are tracking both our ability to visit children and 
other key aspects of case management--like how we are doing on 
case plans and investigations--as part of our 1 year 
measurement from the court monitor. May 31 was the date at 
which the court monitor will be reviewing all those things. We 
are looking at where we are.
    In some areas we have truly dramatic improvements. For 
example, at the front of the system, the investigations of 
abuse neglect where we have concentrated resources and done 
early improvements, we have gone from about more than 800 
investigations last year at this time, were backlogged more 
than 30 days. Now we are down to about 150 which is well below 
the target, much better than the target that the court monitor 
set for us. So we have made dramatic improvements in some areas 
and in other areas, while we expect to see some improvement, we 
won't be where we hoped to be but we are on the right track.
    We discussed at length with Maryland some of the issues 
around visiting and oversight. I think what we both brought to 
the table is we both acknowledge the areas where both 
jurisdictions have to do some more work. We have committed some 
resources to assist Prince George's County because there are 
pieces of the process that are their's to do that they were not 
fully able to carry out and we have been able to make some 
commitments in that regard.
    For example, on the intake side, investigations, they 
actually have worse caseloads for their social workers than we 
do. We needed to make sure they were able to promptly 
investigate should there be a report of abuse or neglect in a 
grandmother's home that a child is with. So we have done some 
things to address that. On our side we have made the commitment 
to appropriate oversight and to report to them monthly.
    I think what I want to report I am particularly pleased 
with is we have all come to the table with the well being of 
Maryland and District children foremost in our minds and with 
making the arrangements that will work best for that, even if 
it involves some sharing or some working together of a kind 
that didn't happen in the past.
    Ms. Norton. I am real pleased that you indicated on the 
record there will be a border agreement ``within days.''
    Dr. Golden. An interim agreement actually. The ``within 
days'' will not be the final border agreement.
    Ms. Norton. Well, that means you are on your way and I 
congratulate you on that.
    What progress have you made in complying with the Adoption 
and Safe Families Act?
    Dr. Golden. We are making important progress in a number of 
areas. Again, I would say what we will know after we look at 
this first year's review how far we have come from the baseline 
but we are not going to be all the way to where we need to be 
in 1 year.
    As a couple of examples, I highlighted the increase in 
adoptions in my testimony. That is one of the areas where we 
are seeing some dramatic success. We are also focusing on some 
of the key issues in terms of legal action where we need to 
work with the court. For example, filing termination of 
parental rights at appropriate times, we have made some 
dramatic changes in that.
    I know there were earlier questions for Judge Satterfield 
about outcome measures. Judge Satterfield and I have talked 
about how to look across the outcome measures we are using that 
because they are identified by the Federal Government, 
identified by the Federal court, or our own priorities, and the 
outcome measures for the court to pick the ones we want to work 
on in a shared way to measure information.
    We are making progress but we are not going to be 
everywhere we need to be after 1 year.
    Ms. Norton. Do I understand that you have met the mandate 
of the Family Court Act that representatives will be onsite to 
coordinate social services and provide information to judges 
about the availability of those services? Two, has the Mayor 
appointed a social services liaison with the Family Court for 
coordinating delivery of services?
    Dr. Golden. Those provisions are in process; they are not 
finished yet. Deputy Mayor Graham is the lead. We have done 
some important work in bringing the multiple agencies together, 
including the Department of Mental Health in our deliberations 
around services for children and which cases to transfer. So we 
have begun that.
    We haven't yet done the job descriptions, identified the 
liaisons and located them onsite but we are talking about that 
in process and also discussing the space issues with the court.
    Ms. Norton. I have to alert you, as far as Mr. DeLay and I 
were concerned, that was an absolutely critical part. We 
weren't just about a court and if we have judges who were able 
to testify today they are on target on their transition plan, 
they are not behind, I would think getting these staff in place 
would not be the most cumbersome part of the transition we are 
thinking about.
    They have ten judges, I understand, already. I think they 
testified they are down to only 31?
    Dr. Golden. I think they will be after the transition is 
complete. That is right, 31 plus the Family Court judges, 31 
outside and 15 Family Court.
    Ms. Norton. We really were not very interested in a court 
except insofar as the Court was ready to work with you, so I am 
going to have to ask, the Mayor has not appointed a social 
services liaison for the court? What does that take? That is 
not the hardest part of that.
    Dr. Golden. I will take that back. We have been working 
together, the Deputy Mayor's Office has been the lead on the 
social services linkages and we have been driving the key 
operational pieces with the child abuse and neglect portion of 
the Family Court. We have been talking frequently.
    An example of how it has worked is that one of the big 
operational questions was how do we pick which cases move from 
those judges outside the Family Court into the court. With the 
Deputy Mayor's leadership, we involved a range of agencies, not 
just CFSA, so we could identify cases where the child would 
benefit from coming into the Family Court because we could then 
look at those issues intensively. So we have been working 
together but we haven't physically moved people over to the 
Family Court.
    I hear the comment that working with the Court on space and 
on identifying the people for the physical move is important to 
the committee but I would note the work has been happening.
    Ms. Norton. Have you been involved in the space?
    Dr. Golden. We have been asked for comments and involved in 
the conversations.
    Ms. Norton. Would you reply to the record within 30 days 
with when a social services liaison with the Family Court will 
be appointed for the purpose of coordinating the delivery of 
services? Without that person in place, I don't see how the 
rest--you can't do this. You have an overwhelming job. I can 
think of no more difficult a job in the city government than 
what you have. You are proceeding forthwith here. You should 
not be the person who has to worry about the coordination of 
these services. You are quite right, it is not just CSFA. It is 
a tough job. The Mayor needs to appoint somebody right away to 
do that job or the court is going to be sitting there without 
what it takes to make all we have done with the court work. 
This is very important and I am very concerned.
    In 30 days we need to know when that person will be onsite 
and you need to report that date to us, to the record and my 
staff will look to see that date has been recorded.
    Dr. Golden. We will make that report. I would note I don't 
think the work has been slowed down because people have been 
doing the work collegially but I share the view that we need to 
make that appointment.
    Ms. Norton. If there is not a person in charge, as far as I 
am concerned there is not a person in charge of that very 
important service delivery component liaison with the court, it 
is not going to happen. Unless there is somebody accountable 
for making sure the court has availability so the court can 
say, this, that or the other.
    We are dealing with a court that sometimes in light of the 
lack of service knowledge, has had to put children in Oak Hill 
because nobody could tell them where to find services in the 
District of Columbia. Congress is going to be awfully 
displeased if the city side of this is missing and you cannot 
do that, you should not be called upon to do that. The statute 
says, ``appoint'' somebody to do that. You can't tell me when 
somebody will be appointed. You have 30 days to tell the 
committee when somebody will be appointed. Just carry that 
back. I know that is not your job to appoint somebody.
    Let me quickly ask two more questions. Mr. Harlan, you 
mentioned the Congress had been particularly concerned about 
the reduction in police overtime and you seem to indicate some 
work had been done on that. We are very interested in that 
issue. That is one of the great waste of resources the District 
hasn't dealt with. What has been the reduction, if any, in 
police overtime wasted in the courts? What has been the 
progress of the U.S. Attorney and the courts in dealing with 
this complicated issue?
    Mr. Harlan. We have not done a followup study to know the 
exact numbers, Ms. Norton. I will tell you there has been 
progress. I believe Judge King referenced that progress in his 
testimony this morning. It is like so many things, it is going 
to take a continued focus, a continued effort to get these 
agencies to work together and to receive and obtain the results 
of reduction of police overtime that is so necessary.
    The Criminal Justice Coordinating Council is in an 
excellent position to implement this across the judicial 
system. I have just heard they have now hired an executive 
director for the Criminal Justice Coordinating Council which is 
good news because it needs proper staff. I would hope that 
progress would continue. To be specific, I just don't have the 
information for you.
    Ms. Norton. It may be that Mr. Harlan, whom I want to 
congratulate on the record and commend for the most 
extraordinary work he has done on the Family Court matter which 
he worked on long before it came to the attention of the 
Congress or any of us, among other things. It may be that if he 
has some information from the Council of Court Excellence, we 
could get that information. I appreciate you raised it and it 
is a very important issue.
    The Family Court Act that we recently passed requires that 
within 6 months of the enactment, the Mayor must submit a plan 
for integrating computer systems with those of the court. We 
just learned we don't have a Family Court Services Liaison. 
Does that mean this matter of integrating computer systems has 
not begun yet?
    Dr. Golden. No.
    Ms. Norton. No later than July 8, 2002.
    Dr. Golden. That is well on track. The leadership is with 
the District's Chief Technology Officer and the Deputy Mayor 
for Children and Families. They are working together on it. The 
representatives of both offices are here today.
    Both the computer people have been talking with the court 
but also the program people to discuss what the requirements 
are. I know our program people have been involved in saying 
what we need. The group has been looking at short term and 
longer term solutions because there are very immediate things 
that we need to connect like having information on court 
hearing dates and then the much broader connections envisaged 
in the statute. That effort is moving along with that 
leadership by both the technology side and the Deputy Mayor for 
Children and Families.
    Ms. Norton. We have a very good Technology Office despite 
that everyone knows what happened to DMV. If that happened to 
the court, we would all be in a lot of trouble and it happens 
because computers do that to us.
    I very much appreciate what you said about short term and 
long term. If DMV had assumed error, as we now must if we put 
computers in place, then it would have had an alternative plan. 
This is very difficult, what you have to do. In fact, 
everything you have to do in Child and Family Services and with 
the court is just awesome.
    If you hear some criticism from us, please understand what 
you are having to do is very much akin to starting new. You 
would be better off if you started anew because you wouldn't 
have to unravel so much mess. It is happening with the court 
and it is happening here. We can see very substantial progress.
    Dr. Golden. Thank you.
    Ms. Norton. I questioned the court about alternative space, 
not because the court isn't doing all it can do but because we 
would understand this if we were in private business. If you 
are in private business, you wouldn't leave it to the 
construction as to whether you are going to open. You have to 
open and see because there is a bottom line. We don't have any 
bottom line except the children and they will have to wait.
    When you say short term and long term on these computers, 
let me just encourage you have in place something that if it 
doesn't click, what you are doing is much harder than what the 
District Government is doing because you are taking one branch 
of government and trying to connect it with another branch of 
government. If it doesn't click, your notion of a short term 
approach while the long term computer hookup is going on, is 
very, very wise.
    Let me congratulate you on your work, Ms. Golden. It is a 
work in which many before you have failed, not because they 
haven't tried very, very seriously to make this system work. 
People are failing all over the country. We don't see this as a 
District of Columbia problem. We know how to read what is 
happening to family courts and to troubled families all over 
the United States. Yet our job is to put pressure on ourselves 
and also on you to just get it right and do it better.
    We are very pleased with the progress that has been made. I 
am very proud that the District now is in control again of 
Family and Child Services but of all of the agencies that were 
put in receivership. That is a monumental achievement. The 
mayor and his administration deserve a lot of credit for having 
the credibility to get these back from the courts, to show we 
could do it even better than the courts. He deserves praise and 
he can get that praise only if he gets it through you.
    The court is on track on its transition. I am very pleased 
with that and if you proceed as you are now and get that Family 
Services Coordinator in place, may be the most important thing 
you could do for the court. If that is missing, no testimony we 
heard from the Court today will matter. It will be callosal 
criticism from the Congress.
    If we can just turn our attention to that part of it, 
stressing not your attention, then it does seem to me this 
hearing has demonstrated that both the court and CSFA are on 
their way to reinventing a new system for our vulnerable 
children and families. We appreciate all the work you have 
done.
    On behalf of the Chair who alone has the power and 
authority to either conduct or adjourn this hearing, she had 
indicated that when I got through it would be adjourned, so 
Mrs. Morella says the hearing is adjourned.
    [Whereupon, at 1:20 p.m., the subcommittee was adjourned, 
to reconvene at the call of the Chair.]


</pre></body></html>
